<html>
<title> - EMERGENCY RESPONSE AND RECOVERY: CENTRAL TAKEAWAYS FROM THE UNPRECEDENTED 2017 HURRICANE SEASON</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


      EMERGENCY RESPONSE AND RECOVERY: CENTRAL TAKEAWAYS FROM THE 
                  UNPRECEDENTED 2017 HURRICANE SEASON

=======================================================================

                                (115-29)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 2, 2017

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-620 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5c3b2c331c3f292f283439302c723f333172">[email&#160;protected]</a>                             
                             
                             
                             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania                Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                       Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               TESTIMONY
                                Panel 1

Hon. Michael T. McCaul, a Representative in Congress from the 
  State of Texas, Chairman, Committee on Homeland Security.......     4
Hon. Gene Green, a Representative in Congress from the State of 
  Texas..........................................................     4
Hon. John H. Rutherford, a Representative in Congress from the 
  State of Florida...............................................     4
Hon. Al Lawson, Jr., a Representative in Congress from the State 
  of Florida.....................................................     4
Hon. Jenniffer Gonzalez-Colon, Resident Commissioner in Congress 
  from the Territory of Puerto Rico..............................     4
Hon. Stacey E. Plaskett, a Delegate in Congress from the 
  Territory of the U.S. Virgin Islands...........................     4

                                Panel 2

Hon. William B. Long, Administrator, Federal Emergency Management 
  Agency.........................................................    16
Vice Admiral Karl L. Schultz, Commander, Atlantic Area, U.S. 
  Coast Guard....................................................    16
Major General Ed Jackson, Deputy Commanding General for Civil and 
  Emergency Operations, U.S. Army Corps of Engineers.............    16
Hon. Peter D. Lopez, Regional Administrator for Region 2, 
  Environmental Protection Agency................................    16

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Sheila Jackson Lee of Texas.................................    70

             PREPARED STATEMENTS SUBMITTED BY WITNESSES \1\

Hon. William B. Long.............................................    83
Vice Admiral Karl L. Schultz.....................................   143
Major General Ed Jackson.........................................   154
Hon. Peter D. Lopez..............................................   164

                       SUBMISSIONS FOR THE RECORD

Hon. William B. Long, Administrator, Federal Emergency Management 
  Agency, responses to questions for the record from the 
  following Representatives:

    Hon. Blake Farenthold of Texas...............................    93
    Hon. Peter A. DeFazio of Oregon..............................    95
    Hon. Garret Graves of Louisiana..............................   139
    Hon. Daniel Lipinski of Illinois.............................   140
Vice Admiral Karl L. Schultz, Commander, Atlantic Area, U.S. 
  Coast Guard, responses to questions for the record from the 
  following Representatives:

    Hon. Blake Farenthold of Texas...............................   148
    Hon. Peter A. DeFazio of Oregon..............................   149
Major General Ed Jackson, Deputy Commanding General for Civil and 
  Emergency Operations, U.S. Army Corps of Engineers, responses 
  to questions for the record from the following Representatives:

    Hon. Blake Farenthold of Texas...............................   158
    Hon. Peter A. DeFazio of Oregon..............................   158

----------
\1\ Panel 1 witnesses did not submit prepared statements for the 
record.
Hon. Peter D. Lopez, Regional Administrator for Region 2, 
  Environmental Protection Agency, responses to questions for the 
  record from the following Representatives:

    Hon. Blake Farenthold of Texas...............................   172
    Hon. Peter A. DeFazio of Oregon..............................   172
Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, submission of letters to the California 
  congressional delegation from California Governor Edmund G. 
  Brown, Jr.; California Department of Transportation; and 
  jointly from California Natural Resources Agency and California 
  Office of Emergency Services 




Vice Admiral Karl L. Schultz, Commander, Atlantic Area, U.S. 
  Coast Guard, response to request for information from Hon. 
  Randy K. Weber, Sr., a Representative in Congress from the 
  State of Texas.................................................    47
Hon. Brian Babin, a Representative in Congress from the State of 
  Texas, submission of Cameron Parish Police Jury resolution.....   187
Hon. Sean Patrick Maloney, a Representative in Congress from the 
  State of New York, submission of article entitled, ``With 
  Little Fanfare, U.S. Airlines Mounted Extensive Storm Relief,'' 
  by Robert Silk, October 30, 2017, Travel Weekly................   189
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, submission of report entitled, ``Puerto Rico: 
  Characteristics of the Island's Maritime Trade and Potential 
  Effects of Modifying the Jones Act,'' March 2013, U.S. 
  Government Accountability Office...............................   192

                        ADDITIONS TO THE RECORD

Hon. Jenniffer Gonzalez-Colon, Resident Commissioner in Congress 
  from the Territory of Puerto Rico, submission of Puerto Rico's 
  FHWA/FEMA eligible road repair estimate and bridge damage 
  assessment 


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


 
      EMERGENCY RESPONSE AND RECOVERY: CENTRAL TAKEAWAYS FROM THE 
                  UNPRECEDENTED 2017 HURRICANE SEASON

                              ----------                              


                       THURSDAY, NOVEMBER 2, 2017

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m. in 
room 2167, Rayburn House Office Building, Hon. Bill Shuster 
(Chairman of the committee) presiding.
    Mr. Shuster. The committee will come to order. Without 
objection, the Chair is authorized to declare a recess at any 
time today.
    Today's hearing is focused on the 2017 hurricane season, 
specifically Hurricanes Harvey, Irma, and Maria. And some of 
the facts are really staggering. In 2017 there were 10 back-to-
back hurricanes, and that hasn't occurred since 1893 in this 
country. So a season that was just jam-packed with hurricanes--
again, something we haven't seen in over 100 years.
    Estimates are that it is going to be the most expensive 
hurricane season on record, ranging anywhere from $200 billion 
to $290 billion. So again, this was a horrific year in regard 
to hurricanes, and our thoughts and prayers go out to all those 
who have been affected and continue to be impacted by the 
storms, as well as their fellow Americans working to restore 
the vital services in those communities.
    These storms, as I said, wreaked havoc upon large sections 
of the continental United States, the U.S. Virgin Islands, and 
Puerto Rico. They were nothing short of devastating. But 
thankfully, due to the efforts of the Federal agencies before 
us today, Americans are recovering and rebuilding.
    As the committee with primary jurisdiction over FEMA, the 
U.S. Coast Guard, the U.S. Army Corps of Engineers, and the 
Environmental Protection Agency, it is our duty to hear from 
those Federal entities directly about the disaster response and 
recovery.
    When a major disaster strikes, FEMA is responsible for 
coordinating the Federal agency's response and ensuring the 
necessary Federal capabilities are deployed. Oftentimes the 
U.S. Coast Guard is one of the first agencies on the scene, 
conducting search-and-rescue missions, reopening ports, and 
responding to oil spills. Post-disaster, the Army Corps of 
Engineers' expertise is drawn upon for emergency repairs, 
debris management, temporary reroofing of housing, and critical 
infrastructure reestablishment. The EPA assists in the 
assessment of Superfund sites, oil sites, critical drinking 
water and wastewater facilities, and the coordination of storm 
debris management.
    This hearing is the first step in reexamining the 
authorities of those Federal partners to ensure they have the 
tools necessary to help communities recover from disasters. 
Indeed, we owe it to those who have lost so much and endured so 
much suffering to identify and act upon lessons learned from 
this historic hurricane season.
    This committee has done so before in a bipartisan fashion, 
be it post-Hurricane Katrina or Superstorm Sandy. Our 
discussions here will help us identify solutions that will help 
reduce future loss of life, while lowering the costs of 
disasters, and speed recovery.
    I want to thank subcommittee chairmen Mr. Barletta, Mr. 
Hunter, and Mr. Graves for their leadership and for laying the 
groundwork on many of these issues. Our subcommittees have 
already done a lot of work focusing on how we can respond and 
rebuild smarter, and today we hope to hear from our witnesses 
what can be done to ensure each agency has the tools needed to 
do so.
    I want to thank Homeland Security Committee Chairman Mike 
McCaul for being here today to inform us about the needs of 
Texas and his community. I also want to thank and welcome 
Representative Gene Green of Texas, and Representatives 
Rutherford and Lawson of Florida.
    And our Delegate from the Virgin Islands and Resident 
Commissioner from Puerto Rico are not here yet, Miss Jenniffer 
Gonzalez-Colon, and Ms. Plaskett. They are both on their way, 
and we will again look forward to hearing from them and get 
their input on what has happened, how it is going. And there is 
no better way, I think, than hearing directly from our 
colleagues who represent those States and those constituencies, 
and again look forward to hearing about what those communities 
and regions may need in their recovery.
    I also want to thank FEMA Administrator Brock Long, Vice 
Admiral Schultz of the Coast Guard, Major General Jackson of 
the Corps, and EPA Regional Administrator Lopez. They are 
critical partners in this effort, and I look forward to their 
testimony and their ideas for improving on how the country can 
prepare to respond and work to prevent large-scale disasters.
    Again, I thank all of you for being here. And with that, I 
recognize Ranking Member DeFazio for a statement.
    Mr. DeFazio. Thank you, Mr. Chairman. I guess I won't 
repeat much of what you said. But in particular I am hoping 
that both our congressional witnesses and other members of the 
subsequent panel can talk about where we are at today, a status 
report.
    You know, we are distant from the places that have been 
impacted. I am certain there is still tremendous displacement 
in southern Florida and Texas.
    And mostly these days in the news we are hearing about the 
problems, ongoing problems in Puerto Rico, where 20 percent of 
the people still don't have access to safe drinking water. Many 
of the plants are still offline for lack of power. Twenty-nine 
percent of Puerto Ricans have power, is the estimate. And this 
is definitely not something that I would rate as a 10-plus, as 
the President has rated our response. And I want to find out 
what the issues are that are delaying actions in Puerto Rico, 
whether they are budgetary or logistical, in what form they 
take.
    Obviously, many of us were concerned when we saw the award 
of a $300 million no-bid contract to Whitefish Energy Holdings 
with two employees which is going to be paying linemen $2,500 a 
day as subcontractors to restore power. I hear that is going to 
be cancelled. I want to be assured by FEMA that there will be 
no Federal reimbursement.
    You know, I am quite familiar with the Federal 
reimbursement process, and these--we don't do no-bid dubious 
contracts at outrageous prices and give Federal reimbursement 
to local entities who enter into such contracts.
    And then finally, I hope, once and for all, to put to rest 
the idea that somehow the Jones Act is inhibiting the recovery 
of Puerto Rico. We have had more than 20,000 containers 
delivered. The problem has been the logistics of getting those 
out of the port to the remote parts of the island. I want to 
hear more about the infrastructure problems that are inhibiting 
the distribution, and what we can do about that in the short 
and the long term.
    I also hope to hear that we are going to be emphasizing, in 
all of these communities, resilience, as we rebuild, and that 
whatever the Federal Government can do in terms of its 
reimbursement to encourage resilient rebuilding so that we 
won't be paying again and again and again for subsequent floods 
in Houston or for things that are destructed by wind in Florida 
and in Puerto Rico. Hopefully, we can learn from this and we 
can build in such a way that they will better serve their 
citizens in future events like this, which are becoming all too 
frequent.
    With that, I look forward to hearing from our witnesses. 
Thank you, Mr. Chairman.
    Mr. Shuster. Thank you very much, Mr. DeFazio. And just a 
point to make, Ranking Member DeFazio and myself will be, this 
weekend, traveling down to Florida, Puerto Rico, and the Virgin 
Islands. I have been to Texas before with Chairman McCaul to 
see the effects of the storms there, and also to Florida one 
other time.
    So again, I think it is important that we see it firsthand. 
But that is why it is so important for you folks to be here, 
because you are living in those communities, you are talking to 
those people every day. So I really appreciate you, the Members 
that are here, taking the time to talk to us today.
    And with that, I will recognize Chairman McCaul for his 
statement.

   TESTIMONY OF HON. MICHAEL T. MCCAUL, A REPRESENTATIVE IN 
   CONGRESS FROM THE STATE OF TEXAS, CHAIRMAN, COMMITTEE ON 
    HOMELAND SECURITY; HON. GENE GREEN, A REPRESENTATIVE IN 
 CONGRESS FROM THE STATE OF TEXAS; HON. JOHN H. RUTHERFORD, A 
 REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA; HON. AL 
  LAWSON, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
 FLORIDA; HON. JENNIFFER GONZALEZ-COLON, RESIDENT COMMISSIONER 
IN CONGRESS FROM THE TERRITORY OF PUERTO RICO; AND HON. STACEY 
 E. PLASKETT, A DELEGATE IN CONGRESS FROM THE TERRITORY OF THE 
                      U.S. VIRGIN ISLANDS

    Mr. McCaul. Thank you, Chairman Shuster, Ranking Member 
DeFazio, I appreciate the opportunity to be here today. I would 
be remiss if I didn't say how about those Astros last night? 
Being from my home State of Texas, we are proud of that.
    But this hurricane unleashed a fury on my home State and 
devastated many homes and communities in and around the 
district. After the storm I toured much of the wreckage. Some 
of the images were absolutely horrifying. Roads were flooded, 
homes were destroyed. And sadly, many people lost their lives.
    [Slide]
    Mr. McCaul. I think this image says it all. It is kind of 
like the Iwo Jima of Harvey. You have a department of public 
safety, a Marine, Coast Guard, and a Texas guardsman all in 
this vessel saving lives.
    My grandfather survived the 1900 Galveston hurricane; 
10,000 people were killed. In this event we saved 20,000 lives. 
So that is--I guess if there is any good news out of this 
story, it was the lives that were saved and how the community 
came together.
    Our first responders answered countless calls, sprung to 
action, saving, again, 20,000 lives. Volunteers from churches, 
shelters, other civic groups became heroes during this grave 
time. And Texans from all walks of life came together to help 
their fellow Texans.
    [Slide]
    Mr. McCaul. One other, I think, image: this is Katy High 
School in my district. That became a forward operating base for 
the Texas Guard and Active Duty in service who rescued the 
lives in the Greater Houston area and then sprung into action 
into Beaumont and other parts of my State.
    As the waters receded, the extent of our damage to our 
community became crystal clear. I remain grateful to 
Administrator Long and the men and women of FEMA for working 
with our Governor, our first responders to coordinate the 
extensive Federal response. The district I represent and the 
surrounding area has experienced three major floods in the last 
2 years. More specifically, the flooding has become a major 
problem around the Cypress Creek and Addicks and Barker 
Reservoirs.
    Chairman Shuster, I know you accompanied me down to Texas, 
and I appreciate you coming down to see firsthand the effects 
of this devastating hurricane.
    [Slide]
    Mr. McCaul. And as you can see from this map, I think this 
map really says it all about where we are with infrastructure 
in the United States and in my home State. In 1940 the Army 
Corps built the Barker and Addicks Reservoirs. That is what you 
saw, the controlled spillage that then went into Buffalo Bayou 
and then into downtown Houston. But where the whole thing 
emanated was in Cypress Creek that is outlined in red in my 
district. That levee, unfortunately, was never built by the 
Army Corps. Had it been built, we may have had a different 
situation that day.
    I am proposing that--the building of a reservoir. I think 
this is preventative infrastructure that can stop this kind of 
flooding in the future, and I think that is what this committee 
is all about and, I think, committed to. These investments will 
minimize risks that we would otherwise have to face down the 
road, ultimately saving taxpayer dollars.
    And that is why I am working with FEMA and my Governor and 
local officials and colleagues to identify options for flood 
mitigation to protect the Greater Houston area from future 
disasters.
    Two ways I think Congress can help in these efforts would 
be to harmonize the approximately 40 types of mitigation and 
recovery assistance, and work to address duplication of project 
issues so States like mine can utilize Federal assistance most 
efficiently and effectively.
    As it stands, States would benefit from a congressional 
waiver of existing law that would allow Federal entities the 
ability to provide funding to local governments for projects 
that are receiving other sources of Federal funding in order to 
expedite critical disaster recovery projects.
    When communities are dealing with disaster recovery, the 
Federal Government should not be an obstacle to overcome, but a 
resource to help people put their lives back together. It is 
extremely important that we review the lessons learned from 
local, State, and Federal coordination when it comes to 
response efforts in the wake of these disasters. But we must 
also discuss our most pressing infrastructure needs so we can 
minimize unnecessary damage or loss of life when the next 
disaster strikes. We cannot afford to wait.
    I cannot afford to wait 10 years to have the Army Corps of 
Engineers build this reservoir. Study upon study upon study. So 
Chairman Shuster, Ranking Member DeFazio, I look forward to 
working with you and the members of this committee to have a 
more expedited process that makes sense to help rebuild Texas 
to make sure this never happens again.
    And with that, I yield back.
    Mr. Shuster. I thank the gentleman.
    I now recognize Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, both you and Ranking 
Member DeFazio, for allowing me to testify. I first have to say 
Congresswoman Eddie Bernice Johnson and I started our political 
careers in 1973 as young State legislators in the Texas 
Legislature. So Eddie B and I, she has watched when I was newly 
married and with my children, and now she sees my grandchildren 
growing up.
    So the 29th District that I represent includes northeast 
and southeast Houston and Harris County, a very urban area and 
one of the most highly impacted districts by Hurricane Harvey. 
We have 10 Members of Congress who represent the upper Texas 
coast, from Corpus Christi up to the Sabine border with 
Louisiana.
    One of the biggest issues in our district, in Houston and 
Harris County, is the delay in Federal Emergency Management 
Agency, FEMA, handling of disaster assistance. Two months after 
Harvey's landfall there still is significant backlog of 
disaster survivors waiting for inspectors to verify the damage 
to their homes and property. Recent reports indicate that the 
average wait for a home inspection is over 1 month, far 
exceeding the wait time for inspections following Tropical 
Storm Allison and Hurricane Ike that also hit our areas.
    Constituents have registered frustrations regarding the 
FEMA telephone help line. In the weeks following the flood, 
impacted individuals sometimes spent hours on hold before 
reaching a representative, and many experienced repeated 
disconnections. While we appreciate FEMA's prompt response to 
our office when we make inquiries on behalf of our 
constituents, individuals should not have to contact their 
Member of Congress to obtain FEMA assistance, but we ask them 
to.
    It is our office's experience that FEMA's individual 
assistance program is not administered uniformly. We have seen 
neighboring properties in our community with similar damage 
receiving vastly different amounts of Federal aid, subject to 
inspectors with varying levels of experience and knowledge. We 
ask that the Transportation and Infrastructure Committee ensure 
that FEMA's individual assistance program is administered 
fairly and uniformly.
    Our most concerning constituent requests are a growing 
number of senior citizens and low-income families who lived in 
special flood areas and could not afford flood insurance. Many 
of these seniors in low-income households who have the greatest 
need for aid are prohibited from receiving assistance because 
they could not afford flood insurance premiums. In some parts 
of Houston, Harris County, flood insurance premiums are in 
excess of $4,000 annually for a modest home.
    Our office is currently working on legislation to create an 
exemption for seniors and low-income households who could not 
afford flood insurance to be eligible for Federal disaster 
assistance.
    And I also ask the T&I Committee to consider ways to 
provide immediate help for low-income disaster survivors to 
receive Federal aid they desperately need. The current 
prohibition treats our families simply as numbers and not as 
the law-abiding, hard-working Americans that they are, and who 
may completely be wiped out if their Government refuses to help 
them.
    At the same time, many communities face these same barriers 
when coming to preventing the next flooding disaster. All $8.7 
billion has been requested for flood prevention projects for 
our [inaudible] when it comes to approval for these projects, 
Harris County Flood Control District, partnering with the Army 
Corps, is required to do a feasibility study that takes into 
account the cost of the project against the value of the homes 
protected.
    I live in a blue collar district where home values are not 
as high as they are on the east coast, or even other parts of 
Houston, Harris County. Oftentimes the Harris County Flood 
Control District has trouble getting projects green lighted for 
our district because the price level of homes are not--are 
being protected. These homes are not wealthy homes, so they say 
the cost-benefit analysis doesn't work.
    But these folks got flooded three times in the last few 
years. This puts families in an incredibly tough place, because 
your house faces the potential to flood every major storm. You 
basically are stuck in a high-risk area. It is tough to sell 
the house, and flood insurance simply is not in their means to 
afford it.
    Harris County Flood Control District, along with the 
Governor, has also requested $800 million for a buy-out program 
that had been successful in Houston. This allows the city and 
the county to buy many of the more flood-prone properties, 
which greatly reduces the future financial burden on the 
system. Most people are willing to be bought out immediately 
after a bad flood. It is imperative we get this money as 
quickly as possible, so local entities can move quickly while 
there is demand. This is one situation we simply can't afford 
to wait.
    I also represent part of the Port of Houston in our 
district, and I share it with Congressman Brian Babin, who is 
on the committee. The silt has drastically limited 
maneuverability and depth. The port has recently completed 
dredging to 45 feet, allowing for much larger ships to come in 
from the Panama Canal.
    Many of the ships can no longer get through the channel, 
due to the hurricane damage. The port currently estimates that 
the first phase of recovery from the storm could cost an 
estimated $457 million. The ship channel is the life blood of 
Houston. Most of the industry in the city is in the same way 
connected to the port. It is absolutely essential in our 
district that we adequately find Corps projects that get the 
port back at its normal capacity.
    And on the national significance, we have five refineries 
in east Harris County, and you saw that--after what happened 
with Hurricane Harvey, the refineries shut down. They don't 
turn them off and on with a switch; it takes time to get them 
up. And we were paying 25 to 30 percent--30 cents more per 
gallon in our fuel because of the refineries that were shut 
down because of Hurricane Harvey.
    I want to thank the T&I Committee for the opportunity to 
speak this morning, and I will be happy to answer questions if 
the committee have any.
    Thank you, Mr. Chairman.
    Mr. Shuster. I thank the gentleman. I appreciate you being 
here again.
    And now I recognize Representative Rutherford for a 
statement.
    Mr. Rutherford. Chairman Shuster, Ranking Member DeFazio--
--
    Mr. Shuster. Can you pull that mic a little closer to you?
    Mr. Rutherford. Is that better?
    Mr. Shuster. I think, yes.
    Mr. Rutherford. OK. Thank you for the opportunity to be 
here today. And, as you know, last month Hurricane Irma touched 
almost every corner of Florida.
    In my district in northeast Florida, a combination of a 
nor'easter, high tides, and the torrential rains caused by 
Hurricane Irma caused flooding in the city of Jacksonville not 
seen in 150 years. Downtown was literally under water. Power 
was out for many days. Homes and businesses were shuttered.
    However, because of the quick Federal response, the 
leadership of our Governor, and the planning and coordination 
of local emergency management officials and first responders, 
as in Texas, lives were truly saved, and our community was back 
up and running.
    Florida now faces a long road to full recovery. But for the 
purpose of this hearing today, I would like to focus on two 
areas of hurricane response and recovery that are under the 
jurisdiction of this committee. One is the importance of shore 
protection projects, and the second is the importance of 
maintaining the Jones Act. And I think Ranking Member DeFazio 
spoke a little bit about that. And I am going to talk more 
about that in just a moment.
    [Slide]
    Mr. Rutherford. But first, on shore protection, you can see 
on the screens here, for coastal communities like mine, beaches 
and sand dunes and other shoreline infrastructure provide the 
first line of defense against that storm surge. New Jersey saw 
it 5 years ago with Superstorm Sandy. And Florida saw it last 
year with Hurricanes Hermine and Matthew, and then again this 
September with Hurricane Irma.
    [Slide]
    Mr. Rutherford. A great example of what happens when the 
shorelines are not protected properly can be seen on the 
screens here in the room. That home that you see in the sand is 
in a region of my district that was hit by Hurricane Matthew 
last October, but where the beach had not yet been rebuilt and 
renourished. And now, after Irma, that home is gone.
    And it may be difficult to see here, but the 10 homes going 
south from that location are really on a precipice. They are 
right about to fall in, as this home already has.
    Shore protection is very personal to coastal districts like 
mine. However, I want to emphasize that shore protection 
projects should be important to more than just coastal 
communities. Fifty percent of the U.S. population lives within 
1 hour of the seashore. Beaches help generate $225 billion for 
the national economy, and contribute $25 billion in Federal tax 
revenue. They also contribute to a $26 billion trade surplus in 
tourism in my State, not to mention that when local, State, and 
Federal agencies invest in shore protection projects before a 
storm, less funding is needed for rebuilding roads, utilities, 
businesses, and homes after a storm hits.
    When we look back at Hurricane Matthew last October, 
studies show that beach renourishment can save billions of 
dollars in infrastructure damages. And that is a matter of 
safety, but it is also a matter of fiscal common sense.
    And, Mr. Chairman, I want to commend your work over the 
last few years, moving water resource bills on time and with 
strong bipartisan support. It was great to see the WRDA 2018 
process last week in my home State. Water resource projects 
like the pending beach renourishment project in my district 
that would rebuild northeast Florida's beaches hit by Hurricane 
Matthew and now Irma, these projects cannot move forward 
without the important work done in this committee.
    Now, second I would like to highlight the importance of the 
Jones Act not only to my district, but also to the recovery of 
Puerto Rico. And I think Ranking Member DeFazio was absolutely 
correct. The Jones Act has not added difficulties to the 
recovery in Puerto Rico and the Virgin Islands. The goods 
getting to the port were not the problem; it was the 
distribution from the port into the country where the need was 
at, that was the difficulty.
    The U.S. maritime industry, our first responders in times 
of emergency like Hurricane Irma and Maria--and Jacksonville is 
ground zero for getting shipments of much-needed goods to 
Puerto Rico quickly, reliably, and economically. And I am proud 
of the work that the American maritime industry has done these 
last few weeks. They have been working tirelessly around the 
clock to get shipments of goods to those in need.
    Jones Act carriers today have delivered tens of thousands 
of containers to the island via the Port of San Juan. They have 
worked closely with Federal emergency responders, customers, 
and nonprofit organizations to meet the ever-changing and 
increasing needs of the island. They have proven themselves 
committed to meeting Puerto Rico's immediate needs, while also 
supporting the long-term restoration of the island's economy.
    And part of the rebuilding effort is also making sure that 
the hundreds of maritime employees both in San Juan and in 
Jacksonville are able to keep their jobs. The Jones Act 
provides stability to these American workers and certainty to 
industry, which in turn has reinvested more than $1 billion 
into vessels and infrastructure in the shipping corridor 
between Jacksonville and San Juan.
    As an example, over the last 5 years TOTE Maritime has 
invested more than $500 million in Puerto Rico trade. This 
includes the world's two liquified natural gas-powered 
containerships, and these ships have the fastest transit time 
in the trade, traveling from Jacksonville to San Juan in 2\1/2\ 
days.
    Consistent application of the Jones Act enables TOTE to 
make these 35-year investments that ensure consistent, on-time 
deliveries to the people of Puerto Rico, and that ensure cargo 
shipments back to the mainland to support the island's 
manufacturing sector. And it is this continuity and certainty 
that position the U.S. maritime industry in Jacksonville to be 
so capable to respond to the needs of Puerto Rico as the Coast 
Guard reopens the port after Maria.
    Again, I want to thank the committee for having this panel 
today. Hurricanes know no political party. We all must work 
together so that our communities can recover and rebuild 
stronger than ever.
    I yield back.
    Mr. Shuster. Thank you, Mr. Rutherford. I appreciate you 
being here today and appreciate your outlook.
    With that I recognize Representative Lawson for a 
statement.
    Mr. Lawson. Thank you, very much, Mr. Chairman and Ranking 
Member DeFazio and distinguished members of the Transportation 
and Infrastructure Committee. I appreciate the opportunity to 
testify on the impact that Hurricane Irma had on my 
congressional district in Jacksonville.
    I also wish to thank Congresswoman Frederica Wilson and 
Congresswoman Frankel for the opportunity to appear before this 
committee.
    On September the 11th--which is incredible--of this year, 
Hurricane Irma hit Jacksonville with incredible force, causing 
record storm surge and massive flooding in several 
neighborhoods around the city, and power outages for over 
260,000 homes, leaving thousands displaced. According to the 
National Weather Service, water levels for St. Johns River hit 
a record high of 5.57 feet in downtown Jacksonville and similar 
dangerous levels in neighborhoods along the river.
    These are historic levels of flooding which we haven't 
seen, as you heard with Congressman Rutherford, in centuries, 
except for the National Weather Service also reported that the 
vast amount of water in the St. Johns River will continue to 
threaten communities in northeast Florida, making the areas 
more vulnerable every year.
    Jacksonville utility officials estimate that Hurricane Irma 
produced over 200 billion gallons of rainwater to Jacksonville 
in a matter of days. This water is equivalent to 22 days of 
waterflow through the St. Johns River.
    Hurricane Irma also negatively impacted the Jacksonville 
economy. Flooding caused extensive damage to Wells Fargo 
Center, a 37-story office building in downtown Jacksonville, 
closing the building for 25 days, causing significant damages 
to the main electrical and air conditioning, elevators and 
telecommunications system.
    The Hyatt Regency Jacksonville Riverfront Hotel, where you 
have 950 rooms, incurred severe flooding that closed the hotel 
for 7 weeks. Similar businesses also have struggles to get back 
on track. Power was lost to more than a dozen pump stations, 
causing more than 1.5 million gallons of untreated raw sewage 
to overflow into the river and into the city streets.
    Nearly 200,000 gallons of raw sewage spilled into the 
streets of our scenic community, which we had the opportunity 
to observe. Total damage. The storm, high water, and strong 
winds have left 29 city parks and other facilities with limited 
access or are closed. Most of the closures are of waterfront 
parks, piers, boardwalks, floating docks, and boat ramps. The 
damage caused by Irma only adds to the damage caused by October 
Hurricane Matthew, which is still waiting, as a city, waiting 
for millions of dollars, something like $26 million in 
reimbursement, and have left many residents frustrated about 
the lack of speed and funding following these areas.
    During the storm we are glad that our local transportation 
agency--Jacksonville Transportation Authority--played a 
critical role in helping transport people to a safe location. 
The JTA evacuated over 800 citizens and more than 120 people 
with special needs to shelter. The JTA is integral in assisting 
Jacksonville electric, water, and sewer utilities by 
transporting 2,700 mutual aid and other utility workers between 
hotel and staging areas.
    What is important on behalf of Jacksonville for local 
mitigation strategy, I am specifically requesting 11 flood and 
storm surge projects costing an estimated $79 million. In 
addition, I am requesting funding for the U.S. Army Corps of 
Engineers flood study of about $20 million for flood resilience 
efforts in Jacksonville.
    Additionally, I am introducing legislation to appropriate 
funds for flood control and storm damage reduction projects to 
be constructed by the United States Army Corps of Engineers in 
Jacksonville. This will greatly benefit areas in our community 
that were deeply impacted by flood in the areas of Hurricane 
Irma and also offer protection for future storms, which the 
chairman mentioned earlier, by providing quality flood control 
infrastructure.
    I want to thank this committee. And when I look up there 
and see Congressman Dan Webster, many years--the effort that--
when you were speaker of the house--has really helped out a 
great deal in Florida, because we have seen significant 
hurricanes, and money that Mr. Rutherford was talking about for 
beach nourishment.
    We had a hard time one time telling Florida Legislature how 
important it was to bring resources back to the State of 
Florida and to help tourism and to recover. So the money that 
was well spent back then during your era has really stimulated 
economy in Florida, and I thought it was worth mention.
    I look forward to working together to ensure our citizens 
are safe and healthy following these events, and to enact 
policy that would lessen the burden during the next devastation 
of storms.
    And, Mr. Chairman, with that I yield back.
    Mr. Shuster. Thank you very much, Mr. Lawson. I appreciate 
you being here, appreciate your time today. Thank you.
    And with that, I recognize Resident Commissioner Gonzalez-
Colon for her statement.
    Miss Gonzalez-Colon. Thank you, Chairman Shuster and 
Ranking Member DeFazio and all members of this committee, for 
having me here today. This is a great opportunity.
    As you may know, I am the----
    Mr. Shuster. Can you pull that whole box closer? You have 
got to pull the whole box closer to you.
    Miss Gonzalez-Colon. Thank you.
    Mr. Shuster. Thank you.
    Miss Gonzalez-Colon. As you may know, I am representing 3.4 
million American citizens living on the island. So I have a 
voice, but I don't have a vote. That is the reason this hearing 
is so important for Puerto Rico.
    And in that matter, the help that Puerto Rico received from 
Congress and the administration after the disaster has made a 
huge difference. But there is still much left to do, in both 
short-term remediation as well as long-term rebuilding. From 
roads to air, seaports, and communication, all aspects of our 
infrastructure suffered. At the peak of the storm, the whole 
power grid went offline and communications failed. We still 
have 70 percent of our island without power, 20 percent without 
running water, and 20 percent without access to networks.
    In Puerto Rico we have lived the scenario of a shutdown of 
almost all the technological resources in a real catastrophe. 
That is the reason we are living in a humanitarian crisis in 
Puerto Rico.
    It caused total paralyzation of the economy. Workers and 
business are still unable to produce, and this is already 
impacting the Nation. Puerto Rican plants produce 10 percent of 
the U.S. pharmaceuticals and medical devices, a $15 billion 
market. And shortages loom already. Manufacturing represents 42 
percent of our economy, 30 percent of it in pharmaceutical 
medical devices, electronics, among others.
    One of the main issues is the numbers of roads and bridges 
cut off limited response access and communities completely. And 
that is the reason we need to look beyond immediate response 
for bridges, power grid, and roof tarps under the Corps of 
Engineers.
    We also need measures that enable rebuilding 
infrastructure, waiving the cost share requirement for all 
Federal Highway Administration and FEMA disaster recovery 
funding, including permanent construction.
    Today the situation in Puerto Rico is still challenging: 66 
of 68 hospitals are open, but 19 of them still on generation 
power. Sixty-four thousand temporary roof tarps have been 
received, 18,000 blue roof installation has been approved, but 
just 4,000 are being installed. We are really shy in that 
number. Seventy shelters continue to be open with more than 
3,000 people in them, and most of the island still not able to 
receive regular commodities. That is the reason it has been 
mentioned that much of the damage we are facing in Puerto Rico 
is a result of inferior level of infrastructure, construction, 
and maintenance.
    While this could be true in some cases, it must be noted 
that such is a necessary result of budgetary and funding 
limitations imposed upon the Territories. Differential 
treatment in programs of funding, outright exclusion in some 
cases, be it by law or regulation, results in Territories 
forced to do the best they can with extremely limited resources 
available because their political status limits their access to 
Federal grants and credit backing--benefitted from 
administrative or legislative measures to provide a more 
resilient infrastructure.
    This also goes to the disparity in funding from healthcare. 
And we can go on and on. The obstacles in the response process 
itself keep reminding us of Puerto Rico's separate but unequal 
condition.
    Immediately recovery steps that need to be taken include 
flexible obligation of NEPA and other regulations to balance 
the need of environmental protection with the major problem of 
the cleanup and the debris removal. Flexible application of 
requirements of housing subsidies, section 8 housing 
assistance, to take into account that the majority of the 
housing in Puerto Rico is safe, but simply there is no electric 
grid running.
    Administration approval of access to public assistance 
categories C-G under FEMA for major disaster declaration. These 
are the categories that address repairs to infrastructure, 
roads, bridges, water facilities, buildings and equipment, 
utilities, parks, recreational areas, and so forth. A 
comprehensive recovery requires that these be included as the 
extent of damages in Puerto Rico requires permanent rebuilding, 
not repair, of our infrastructure.
    Additional congressional measures will be necessary to 
enable the reconstruction of our infrastructure to begin. 
Action of Congress will be necessary to waive the cost of 
shared requirement of the Federal Highway Administration 
emergency relief program for FEMA funds, including permanent 
repair in both cases. In the case of Puerto Rico it requires 20 
percent local match in permanent repair projects, and the 
Government of Puerto Rico, as you already may know, lacks funds 
at this time.
    Another important step will be to enable Puerto Rico to 
access funds from the INFRA grant and TIGER grant programs for 
the permanent rebuilding process. Those programs also need at 
least 25 percent of funding and require matching funds.
    Moving forward, the legislation in favor of small business 
growth, H.R. 2429 and H.R. 2488 will help stem the troubles of 
small business activity. Congress should consider creating 
programs in which dollars assigned to cover unemployment may be 
used to cover wage incentives for job creation, so that the 
businesses can have their employees return to work.
    There are many other areas that we can continue to 
emphasize in terms of what are the urgent needs for Puerto Rico 
and the Territories. And I hope this committee may find it in 
the written statement.
    Thank you, Mr. Chairman.
    Mr. Shuster. Thank you very much, Resident Commissioner, I 
appreciate you being here. And I just wanted to tell you 
again--I don't think--you or Ms. Plaskett weren't here when I 
said Ranking Member DeFazio and myself and Congressman Garret 
Graves are going down to Puerto Rico and the Virgin Islands 
Sunday and Monday with a contingent from the United States 
Senate.
    So again, I appreciate----
    [Audio malfunction in hearing room.]
    Mr. Shuster. Resident Commissioner, thank you very much for 
being here. And with that I recognize Delegate Plaskett for her 
statement. Thank you.
    Ms. Plaskett. Thank you very much. Thank you, Chairman 
Shuster, Ranking Member DeFazio, members of the committee. 
Thank you for the opportunity to testify on the important 
matters of disaster response and recovery and transportation 
and infrastructure.
    [Slide]
    Ms. Plaskett. I would also like to direct your attention to 
the screen, where we have some photos of the actual devastation 
in the Virgin Islands. That is the hospital that you are seeing 
right there.
    I want to echo the sentiments of my colleague, Jenniffer 
Gonzalez-Colon, in that much of the issues that we are facing 
have much to do with the disparity in funding that the 
Territories have received before the hurricane occurred.
    On September 6, Hurricane Irma wreaked havoc on the islands 
of St. John and St. Thomas. And 2 weeks later, on September 
20th, the island of St. Croix was devastated by Maria, both 
category 5 hurricanes hitting the U.S. Virgin Islands. The 
people of the Virgin Islands have lost their homes, 
possessions. Businesses were lost, along with hospitals, 
schools, utility systems, and vital infrastructure.
    The President and leaders in Congress have committed to 
Americans in the Territories that they will receive the support 
they need. The islands were completely cut off from the world 
until air and sea support could at least resume basic 
operations to the islands. I will remain hopeful yet vigilant 
in my work to see that Congress delivers on the promises to 
support the Virgin Islands and the Territories.
    Disaster legislation passed thus far has provided some 
necessary support. I am pleased to see $5 billion included in 
the latest package to provide the Territories with additional 
liquidity assistance, and the flexibility with local match 
requirements. There is no substantial revenue being generated 
in the Virgin Islands right now. With the loss of Hovensa, our 
oil refinery, and the changes in the American Jobs Creation Act 
of 2004, our tourism-related economy--now estimated at 50 
percent of our GDP--is gone. We will miss this year's season, 
at least.
    For example, Caneel Bay, the largest employer on St. John 
and one of the top resorts on the island, has estimated it will 
take at least 2 years for them to rebuild. Much more will be 
needed.
    In terms of FEMA programs, we will need cost-sharing 
waivers for permanent assistance under categories C through G, 
especially categories in roads, bridges, and utilities, and a 
100-percent Federal share of hazard mitigation. We will also 
need a temporary waiver of the local match for other needs 
assistance. We need a suspension on the cap on disaster housing 
assistance, one to at least double it. Currently, the maximum 
amount of disaster housing assistance is inadequate in the 
high-cost, highly damaged areas like the Virgin Islands.
    The islands are also in need of other important recovery 
funding left out of the most recent disaster bill. For example, 
it did not include economic development programs, additional 
support for repair of our water infrastructure, seaports, 
airports, and roadways, all of which had been included in 
previous disaster relief legislation.
    With an economy that primarily relies on tourism, the 
Virgin Islands depends heavily on infrastructure. Given the 
catastrophic level of damage suffered, the recovery of our 
islands will hinge on the level of support from Congress for 
infrastructure rebuilding. Our two hospitals devastated--Army 
Corps has condemned them both--eight schools have been 
destroyed. Furthermore, we will need regulatory relief of our 
rebuilding. I urge that this committee consider options for 
prioritizing disaster-affected areas in permitting done by Army 
Corps, NOAA, and other agencies, so that we may no longer face 
permitting backlogs that have delayed important projects.
    Our needs are great, and it is partly a result of issues 
that have been longstanding. Our hospitals have been 
chronically underfunded for decades. Our Medicaid is block 
granted at an amount that has no relationship to local needs. 
Our match has been limited to an arbitrarily low 55 percent by 
Congress, that of the wealthiest States. Our school facilities 
were already woefully deficient. Congress has not been willing 
to grant the Department of the Interior requested funding to 
support maintenance levels for one school. The 2004 JOBS Act 
overreached in residency, which removed much of the knowledge-
based businesses that brought people like myself back home 
before 2004.
    So Congress shares some responsibility for the level of 
devastation due to chronic neglect, a benign neglect of the 
Territories. That includes this committee, as well. T&I, the 
Territories used to be treated as States under National Highway 
System programs, with a percentage of funds. But this was 
changed to move us into a separate allotment, and an amount 
significantly lower than what we would have previously 
received.
    Federal transportation funding to the islands fell behind 
other jurisdictions, even though the traffic strains of our 
infrastructure were greater than our population, due to the 
high number of visitors. Territorial roads continue to be under 
stress from inadequate funding, and the Virgin Islands--most of 
the Federal highways do not meet current standards.
    Again, this was before two category 5 storms. Because the 
Territories are islands, much of the road construction is more 
expensive than on the mainland to accommodate supply costs. As 
a result of inadequate funds, crucial projects have been 
shelved, leaving only stop-gap repairs to resolve maintenance 
issues.
    After Irma, and especially after Maria, much of our roads 
and ports, old and lacking upgrades, were destroyed. As the 
week continued, major roads are impassable. Places like 
Wintberg, downtown Frederiksted, massive flooding, impassible 
roads. Charlotte Amalie became a flood zone. The sea took it 
back over.
    I would like to emphasize that this negatively impacts 
everything, from commerce, emergency response capabilities, to 
disaster relief. Extreme weather during this hurricane season 
further demonstrates how fragile our infrastructure already 
was, and how much we depend on it. We must keep this in mind as 
we move forward and consider changes to help the U.S. 
Territories. Thank you for the opportunity to speak on this.
    Mr. Shuster. Well, again, I thank each and every one of you 
for being here. I appreciate you taking the time today. And 
again, as we move down the road on this, we will certainly be 
checking in with you, talking to you. And again, this, as I 
said, Sunday, Ranking Member DeFazio and myself will be in the 
Territories to take a look.
    So again, thank you all very much. I appreciate you being 
here.
    And with that, we will take a couple of minutes. Our next 
panel will make its way here. So everybody sort of be patient. 
It will be a couple of minutes.
    [Pause.]
    Mr. Shuster. The committee will come back to order. And at 
this point I would like to thank and welcome our next panel. I 
really appreciate you four taking the time to come up here. I 
know how busy you have been, I know how busy you will continue 
to be. There is a lot of work left to do. And so I can't thank 
you enough for being here, taking the time to do this. But I 
think it is important that we hear directly from you.
    We just had a panel of Members of Congress representing 
those various areas that have been hit: Texas, Florida, Puerto 
Rico, and the Virgin Islands. And so it is important for us to 
hear from you, the folks that are actually on the ground, doing 
the work, responding.
    And so, again, I want to thank you for taking your 
valuable, valuable time to be here with us today.
    Our next panel has four participants: the Honorable William 
Brock Long, Administrator, the Federal Emergency Management 
Agency; Vice Admiral Karl Schultz, commander of the Atlantic 
area, United States Coast Guard; Major General Ed Jackson, 
deputy commanding general for civil and emergency operations, 
U.S. Army Corps of Engineers; and the Honorable Pete Lopez, the 
regional administrator for region 2 of the EPA.
    Again, I thank each and every one of you for being here 
today.
    Without objection, first of all, I want the witnesses to 
have their full statements in the record. We ask you to keep it 
at about 5 minutes. I am sure there is going to be lots of 
questions afterwards. So again, the--your full statements will 
be part of the record.
    And with that, I recognize Administrator Long.
    Would you proceed?

   TESTIMONY OF HON. WILLIAM B. LONG, ADMINISTRATOR, FEDERAL 
  EMERGENCY MANAGEMENT AGENCY; VICE ADMIRAL KARL L. SCHULTZ, 
 COMMANDER, ATLANTIC AREA, U.S. COAST GUARD; MAJOR GENERAL ED 
  JACKSON, DEPUTY COMMANDING GENERAL FOR CIVIL AND EMERGENCY 
  OPERATIONS, U.S. ARMY CORPS OF ENGINEERS; AND HON. PETER D. 
   LOPEZ, REGIONAL ADMINISTRATOR FOR REGION 2, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Long. Chairman Shuster, Ranking Member DeFazio, 
distinguished members of the committee, my name is Brock Long, 
obviously, a FEMA Administrator. And I am here to testify about 
the critical role that FEMA has played in the unprecedented 
number of disasters over the past several months.
    I have been in office a total of 134 days. For 72 of those 
days we have been working around the clock, my dedicated staff 
has been working around the clock, to try to alleviate the pain 
and suffering that has taken place as a result of four 
catastrophic events that have occurred: Harvey, Irma, Maria, 
and the devastating California wildfires.
    We continue to work. In addition to those four major 
events, my agency is also responding to 25 other disasters 
across 19 different jurisdictions that many of you represent. 
This has been the longest activation in FEMA history, and I am 
extremely proud to continue working with my staff and the 
members of the national response plan framework that have been 
going around the clock.
    While many improvements have been made to ensure a whole 
community response, I recognize that there are many challenges, 
and we have got a long way to go to truly building a resilient 
Nation. And I will be asking for your assistance to help me do 
so while I am here in office.
    I think we have to look at this as an opportunity to hit 
the reset button and truly formulate authorities and the way 
forward to help us mitigate future disasters.
    I am also going to use this as an opportunity to 
acknowledge what FEMA's role is, as granted by Congress through 
the Stafford Act. An optimal response is designed to be 
federally supported, State managed, and locally executed, not 
the other way around. It is my job to coordinate the full 
firepower of the Federal Government down through Governors to 
support their response and recovery efforts, not mine. I don't 
know how to put back your communities better than you do.
    Each level of Government has a critical role to play, and 
has to be well defined. In Puerto Rico, the local and 
Territorial governments, as you know, were struck by rapid-
succession--two major hurricanes that basically overwhelmed not 
only the staff, but the physical capabilities of the island, 
thrusting us to be the primary responder, and basically the 
sole responder for many weeks after the fact. That is not a 
complaint, that is just the facts. I know that we are working 
very hard with Puerto Rico, as well as the Virgin Islands, but 
we are also working hard, as I said, with 20-some other 
jurisdictions around the clock.
    FEMA was never designed to be the first responder, nor 
should we be. And I would like to be able to discuss and have 
open dialogue with you today on how we can better the entire 
disaster response community going forward.
    I want to put some magnitude around what has just happened. 
It is estimated that from Harvey, Irma, Maria, and the 
California wildfires, that 25 million citizens, or 12 percent 
of the population, has been impacted by one of those 4 events. 
FEMA's search and rescue teams alone are credited with saving 
9,000 lives. That is in addition to whatever the Coast Guard 
numbers are. I heard 20,000 or more saved by State and local 
responders or neighbors helping neighbors in Harvey.
    Over 4.5 million citizens have been registered in FEMA's 
Individual Assistance program in 2 months. It is an 
unprecedented number. It is never going to move as fast as 
people want, but let me put that into context. That is more 
than Hurricane Katrina, Hurricane Sandy, Hurricane Wilma, and 
Hurricane Rita combined.
    Over $3.5 billion has been distributed or expedited through 
the NFIP [National Flood Insurance Program], and that number is 
projected to climb to over $16 or $17 billion as a result of 
Harvey and Irma alone.
    Since the onset of Hurricane Harvey, mass-care partners 
like the Red Cross and many State and local responders have 
housed over 1.1 million Americans in shelters. At its peak, 
there were 200,000 Americans in a shelter overnight.
    I have reason to believe that the humanitarian mission to 
Puerto Rico and the Virgin Islands is one of the largest 
humanitarian missions ever pulled off by the United States 
Government, or at least within FEMA's context.
    We have a lot of work to do. I realize that. Turning the 
power on in Puerto Rico and the Virgin Islands solves a lot of 
our problems, and we are continuing to work with the Governor. 
I spoke with the Governor when he was here yesterday. We are 
working with the Governor, the Army Corps of Engineers, and 
trying to facilitate mutual aid to do that as quickly as 
possible. But we have to recognize that there are a lot of 
deferred maintenance issues and an antiquated system that we 
are having to overcome.
    We continue to build up the hospitals and medical functions 
to a truly stable situation. We have unique disaster housing 
issues for all over the country right now, from California to 
the Virgin Islands. And each mission is going to be unique. We 
have to continue to fix roads, clear roads, but also dispose of 
debris. And you can never do debris the same way any given 
time.
    We have a lot of challenges. But the long-term recovery of 
Puerto Rico and the Virgin Islands is going to require a far 
greater solution than what FEMA can offer. It may even increase 
the authorities that we have to do things in a more resilient 
fashion.
    Going forward to improve the whole community response, I 
would like to work with the Congress to do a lot of things. 
One, we got to streamline Federal Government disaster 
assistance. It comes down from a multitude of Government 
agencies. We have to bring it together, simplify it to make it 
down to the local level, where it is understandable and easy to 
use.
    We have to implement and ensure survivable communications. 
We can no longer have communications knocked out if we continue 
to go to digital solutions. How are we making them redundant? 
How are we making them resilient, so that we don't lose 
connectivity and situational awareness?
    We have to increase pre-disaster mitigation funding. It 
does not make sense that you have to get hit to have access to 
mitigation funding. We need to put it upfront. I am willing to 
work with you to do that.
    We have to ensure that State and local governments have 
their own ability to do their lifesaving commodity missions and 
not be fully dependent upon the Federal Emergency Management 
Agency to do so.
    We have to find low- to no-cost ways to truly create a true 
culture of preparedness within our citizens. We have to help 
them understand why it is important to be insured, give them 
affordable insurance, but also help them understand that if you 
are insured, you are going to respond and recover a lot quicker 
than those that don't have it.
    We have to ensure that States have baseline capabilities to 
perform their own individual and public assistance programs 
when FEMA assistance is not coming.
    We have to fix the NFIP, bottom line. I don't like running 
a program that is too confusing to citizens. It is too 
cumbersome, and the bottom line is that it continues to go into 
debt every time we have a major event.
    I am here to work with you in the spirit of improvement to 
do everything that we can to alleviate suffering and to build a 
more resilient Nation.
    Thank you.
    Mr. Shuster. Thank you very much for that, Mr. Long.
    And I recognize Admiral Schultz.
    Admiral Schultz. Good morning, Mr. Chairman, Ranking 
Member, committee members. It is my pleasure to be with you 
today to discuss the United States Coast Guard's role in the 
broader Federal response to Hurricanes Harvey, Irma, and Maria.
    As Federal Government's maritime first responder, we carry 
out our statutory requirements under title 14, U.S. Code. And 
during disaster response missions, we focus on ensuring the 
survivability of our own forces and capabilities in order to 
conduct the post-disaster response operations, saving lives in 
distress, reconstituting the affected ports, waterways, and 
maritime infrastructure, responding to oil and chemical and 
hazardous material spills, and supporting other agencies.
    The Coast Guard stands ready to respond alongside civil 
first responders. At the same time, the Coast Guard seamlessly 
integrates with the Department of Defense in a variety of 
operating environments, as demonstrated during these recent 
responses. As the lead Federal disaster response organization 
in the maritime domain, and an armed service at all times, the 
Coast Guard is uniquely positioned to operate across the full 
response spectrum, often serving as a bridge between the 
military and civil response efforts.
    The Coast Guard has been operating helicopters, boats, 
cutters, vehicles, and even on foot, rescued over 11,300 people 
as part of these broader response efforts. Working with partner 
agencies such as the Army Corps and NOAA, we conducted 
soundings, corrected 1,200 discrepant aids to navigation, 
removed obstructions from shipping channels to rapidly 
reconstitute our maritime transportation system's key ports and 
waterways. These are critical enablers to jump-starting 
adversely impacted regional economies.
    We also worked with the Army Corps and the EPA to 
coordinate the salvage and environmental remediation of 3,600 
damaged or sunken vessels, and that work continues in progress.
    These storms arriving in rapid succession directly impacted 
our numerous Coast Guard facilities, our crews, our families. 
But despite that, your Coast Guard has always found a way to 
respond, oftentimes in the face of personal adversity, to help 
ensure the safety of their communities.
    After Irma and Maria, our multimission cutters and their 
crews evacuated citizens from the U.S. Virgin Islands to 
deliver humanitarian supplies to outlying areas, and 
facilitated port and waterway surveys essential to 
reconstituting those ports. Several of those same crewmembers 
then joined task forces to distribute essential commodities 
like bottled water and food to isolated communities.
    One out of every four Coast Guard rotary wing aircraft 
helicopters deployed in response to Harvey, collectively flying 
over 1,600 hours. That is more than double annual programmed 
hours for one of those classes of helicopters.
    Before Harvey's landfall in southwest Texas, two of our 
short-range Dolphin helicopters battled 60-knot winds to rescue 
12 mariners on sinking vessels.
    While fully engaged in almost 2 months of high-tempo 
hurricane response recovery operations, the Coast Guard 
judiciously absorbed risk in other mission areas and locations 
outside of the storm-impacted areas in order to meet our 
operational requirements to the Nation. Forces normally 
allocated to counterdrug, port security, and fisheries 
enforcement missions were significantly impacted and reduced.
    As Maria damaged our Coast Guard facilities in Puerto Rico, 
including the sector San Juan Operations Center and its command 
and control capabilities, the Coast Guard found itself 
challenged to coordinate operations. Fortunately, in 
anticipation of Maria's catastrophic damages, we had diverted 
one of our newest National Security Cutters, the Coast Guard 
cutter James, returning from a multimonth drug patrol in the 
eastern Pacific, to Puerto Rico.
    In Puerto Rico, she became an afloat command and control--
or C2--node, and was able to run the operations normally run 
from shoreside facilities.
    Emblematic of the Coast Guard's agility and our layered 
defense of capabilities, when James repositioned to Puerto 
Rico, a 48-year-old ship, the Coast Guard cutter Alert out of 
the Pacific Northwest, stood the watch against transnational 
criminal activities in the eastern Pacific. That crew 
interdicted 4,800 kilograms of cocaine and arrested or detained 
19 smugglers.
    In support of the hurricanes, the Coast Guard mobilized 
nearly 3,000 people. Roughly 2,000 of that was Active Duty, 800 
Reservists, and 150 of our civilians. Also a sizeable number of 
our volunteer auxilliarists.
    Coast Guards from across the Nation, as far away as Alaska 
and Hawaii, supported these efforts in Texas, Florida, the 
Commonwealth of Puerto Rico, and the Territories of the U.S. 
Virgin Islands. It is really one of the reasons I am 
tremendously proud of this total workforce.
    Coastguardsmen and their families are part of the 
communities impacted, and they were victims of the storm, 
noting the homes of almost 100 coastguardsmen were damaged to 
the point they are uninhabitable, and we are seeking relocation 
for them.
    Our workforce is agile. We have the centralized command and 
control structure, and that enables us to respond agilely to 
these types of situations. Our broad authorities and 
experiences working closely with other interagency response 
organizations allows us to take a lead role as the Nation's 
maritime first responders.
    But these operations do not come without consequences, 
without costs. These are measured in the resources operating 
well above their programmed or planned funded levels, delayed 
maintenance at the depot level, and damage to our Coast Guard 
facilities. We have identified hundreds of millions of dollars 
needed to restore the readiness of our infrastructure. These 
costs are compounded by over $70 million of unrepaired facility 
work from Matthew in the fall of 2016.
    When the Coast Guard has the opportunity to replace our 
facilities, we endeavor to make them storm-resilient and 
survivable. In fact, several of our shore facilities that were 
built following Ike were on the paths of these hurricanes, one 
being a facility in the Bahamas which has since endured the 
passage of many hurricanes without damages. And in Houston, the 
center of gravity for the Harvey response, that was a new 
facility, also funded with post-Ike dollars. And that facility 
was absolutely essential to the response operations there.
    The United States Coast Guard, Mr. Chairman, are among the 
most dedicated, selfless, effective men and women you will find 
in Government. They rely on a foundation of good training, 
reliable equipment, blended with courage, discipline, and 
vigilance. They remain semper paratus, or always ready to 
assist.
    Thanks to the support of this committee, the 
administration, and the Department of Homeland Security, we 
have begun replacing some of our aging assets, but we have 
outstanding needs. We have an unfunded priorities list before 
the Congress. So I ask your continued support as we strive to 
provide the assets, equipment, and facilities that our 
coastguardsmen need and deserve as they answer the Nation's 
call.
    And with that, sir, I stand by for your questions.
    Mr. Shuster. Thank you very much, Admiral. Thank you for 
your service.
    I recognize General Jackson to proceed.
    General Jackson. Chairman Shuster, Ranking Member DeFazio, 
and distinguished members of the committee, my name is Major 
General Ed Jackson, deputy commanding general for civil and 
emergency operations, U.S. Army Corps of Engineers, and I thank 
you for the opportunity to testify today.
    The Corps conducts emergency response activities under two 
basic authorities: the Stafford Act and Public Law 84-99. Under 
the Stafford Act, we support FEMA under the National Response 
Framework as the lead Federal agency for Emergency Support 
Function 3--Public Works and Engineering.
    ESF-3 provides temporary emergency power, temporary 
roofing, debris management, infrastructure assessment, critical 
public facility restoration, and temporary housing. Under 
Public Law 84-99, we prepare for disasters through planning, 
coordination, and training with local, State, and Federal 
partners, assisting our partners to implement advanced measures 
that prevent or reduce storm event damages, and repair damage 
to authorized Federal projects working with States and 
municipalities to rehabilitate and restore eligible non-Federal 
flood infrastructure to pre-storm condition.
    When disasters occur, Corps teams and other resources are 
mobilized from across the command to assist local offices for 
their response to the event. As part of this mission, the Corps 
has more than 50 specially trained teams supported by emergency 
contracts that perform a wide range of public works and 
engineering-related support missions, as I just described.
    The Corps uses pre-awarded contracts that can be quickly 
activated for missions such as debris removal, temporary 
roofing, and generator installation. This year, the Corps has 
supported FEMA-led Federal response and recovery operations in 
support of multiple events, including Hurricanes Harvey, Irma, 
and Maria.
    FEMA directed 37 mission assignments to the Corps for 
supporting Hurricane Harvey response and recovery. Currently 
the Corps has 183 employees still deployed. The Corps assisted 
in temporary emergency power, and continues to support the 
State of Texas with the development and implementation of a 
temporary housing project management plan.
    Debris teams led by Corps subject matter experts continue 
providing State and local municipalities with debris technical 
assistance to define requirements and monitor debris removal 
and disposal operations in 15 counties.
    FEMA directed 81 mission assignments to the Corps for 
supporting Hurricanes Irma and Maria response and recovery. 
Currently, the Corps has over 1,500 personnel deployed. As of 
this morning, the Corps has completed over 1,000 generator 
assessments and over 500 temporary generator installations 
across the Caribbean. This includes 250 assessments and 150 
generator installations in the U.S. Virgin Islands, and 750 
assessments and over 400 generator installations in Puerto 
Rico.
    Under FEMA authority, we are also assisting Puerto Rico 
with operation and maintenance of critical, non-Federal 
generators across the island.
    The Corps has completed over 14,000 temporary roofing 
installations in Florida, and is on track to complete this 
mission by the 4th of November. We have also completed over 
7,000 temporary roofing installations across the Caribbean, 
including over 2,500 in the U.S. Virgin Islands, and over 4,500 
in Puerto Rico. Roofing requirements in both the U.S. Virgin 
Islands and Puerto Rico have been extensive, requiring 
additional material and construction support, which initially 
slowed progress. We have adjusted added capacity, and are 
seeing daily improvements in both locations.
    Corps debris subject matter experts provided technical 
assistance to counties across Florida and Georgia in response 
to Hurricane Irma, and continue to provide oversight to five 
regions within the Florida Department of Emergency Management. 
The Corps is working to remove an estimated 1 million cubic 
yards of debris in the U.S. Virgin Islands, and 6 million cubic 
yards of debris across Puerto Rico.
    The Corps worked closely with the Coast Guard and the 
National Oceanic and Atmospheric Administration and local 
authorities to open harbors and navigation channels across all 
affected areas critical to restoring commerce and allowing the 
flow of commodities and essential equipment to reach affected 
communities. The Corps worked closely with officials in Texas 
and Florida to manage local flood control reservoirs during 
periods of unprecedented rainfall.
    In Puerto Rico, Corps dam and levee teams inspected 17 
priority dams and 14 levees, working closely with the Puerto 
Rico Electric Power Authority to stabilize the spillway failure 
at Guajataca Dam. Additionally, the Corps teams cleared 
existing conduits and placed emergency pumps to further reduce 
water levels in the dam, yet restore flow to a critical 
treatment plant that supports the needs of over 30,000 people.
    On September 30th the Corps was given a FEMA mission 
assignment under Stafford Act authority to assist the Puerto 
Rico Electric Power Authority in conducting emergency repairs 
to the power grid itself. The Corps is partnering with PREPA in 
this effort, and has established a general officer/senior 
executive-level task force, as well as three area offices on 
the island, to oversee work and provide technical assistance. 
The Department of Energy has embedded experts in our team, and 
continues to assist in all of our efforts.
    Within 2 weeks of receiving the mission assignment, the 
Corps awarded contracts for large-scale temporary power 
generation to stabilize the grid in San Juan, and for 
additional line repair assets that will assist ongoing efforts 
by PREPA to complete the mission as quickly as possible.
    The Corps remains fully committed and capable of executing 
its other civil works activities across the Nation, despite our 
heavy involvement in these ongoing response and recovery 
operations. We also remain ready and poised to assist in any 
future events as they may occur.
    This concludes my testimony, and I look forward to 
answering any questions you might have. Thank you.
    Mr. Shuster. Thank you, General. And again, thank you for 
your service.
    I want to yield to Mr. Faso for a statement.
    Mr. Faso. Thank you, Mr. Chairman. I want to welcome Pete 
Lopez, our regional administrator for EPA region 2. Pete is my 
constituent from Schoharie County. Also years ago, worked for 
me when I was minority leader in the State assembly. Had a 
distinguished career of his own in the State legislature, and 
was also someone who suffered--his family suffered directly 
from being flooded back in Irene, when it struck our area back 
in 2011. So he knows firsthand what he is talking about.
    So I want to welcome Pete, and also excuse myself, because 
before too long I have to go downtown for a meeting. So thanks 
for being here.
    Mr. Shuster. I thank the gentleman from New York. And with 
that, Mr. Lopez, proceed.
    Mr. Lopez. Thank you, Mr. Faso. Thank you, Chairman, 
Ranking Member, committee members. I am Pete Lopez, I am the 
region 2 administrator, which covers New York, New Jersey, 
Puerto Rico, Virgin Islands, and eight American Tribes. And I 
want to speak to you directly about EPA's response to the 
devastating impacts of Harvey, Irma, and Maria. Much of my 
focus will be on region 2, which is where I am serving on the 
ground.
    So just a couple notes. This is just a snapshot. For 
Members, you have full testimony. I will try to keep it--I may 
not be following the script, exactly. And also I will try to 
honor the 5-minute rule here, Chairman, so I will keep moving 
as quickly as I can.
    So in response to these storms, EPA has assessed morethan 
5,000 drinking water systems, nearly 1,200 wastewater systems, 
including 100 percent of Texas and Florida systems. We have 
assessed nearly 250 National Priorities List, EPA removal and 
oil sites. We have assessed more than 1,400regulated 
facilities, recovered more than 1,500 containers, drums and 
tanks, and worked with the Coast Guard to address oil and 
hazardous materials released from more than 1,800 sunken 
vessels. We were able to predeploy our emergency response 
special teams and mobile assets to quickly conduct real-time 
analyses to assist with determining threats to human health.
    To minimize or prevent disruptions with the supply of 
diesel fuel for mobile nonroad generators and pumps used for 
emergency purposes, EPA also waived the diesel requirements in 
these affected areas.
    EPA continued its round-the-clock response to these storms, 
in close coordination with State, Territory, and local 
partners. EPA remains focused on environmental impacts and 
potential threats to human health, as well as the safety of 
those in the affected areas.
    EPA has largely transitioned away from round-the-clock 
response to aftermath recovery--a significant difference 
between response and recovery--for Hurricane Harvey. So here 
EPA continues to coordinate recovery efforts with local, State, 
and Federal officials, again, to address human health and 
environmental impacts, especially with water systems in the 
affected areas.
    As Mr. Faso mentioned--and it was my privilege to serve 
with him and for him--in my years of experience as a State 
legislator, I was intensely involved in a response to a very 
similar situation to what has happened in Puerto Rico. So 
upstate New York was hit by Hurricane Irene and Tropical Storm 
Lee. Here my parents and family members were left homeless and 
six of my seven counties were placed in states of emergency.
    The region faced very similar demographic constraints, very 
similar geographic constraints--mountainous Territories, 
northern Appalachia, very limited incomes and very limited 
response capability.
    And through that experience--and this is personal for me, 
because my family was affected not only in New York, but also 
family in Puerto Rico in the Arecibo and Camuy area--here I 
developed an understanding of how complicated it can be for 
areas to recover. And significantly for our people here, the 
more disadvantaged the community, the slower and more painful 
the recovery. And I cannot overemphasize that point.
    So, as I turn to the Caribbean, I recently had a chance to 
travel with my colleague, Deputy Regional Administrator 
Catherine McCabe, who is here, seated with me, behind me, and 
we were struck by the incredible devastation. And the sights, 
the sounds, the smells were all too familiar to me, living 
through Irene and Lee, very similar.
    The focus of the trip was not to simply observe, but, as 
our mission, to engage. And the engagement was substantive, the 
engagement was working with local leaders, the Commonwealth, 
the Territory, and our main mission was to find solutions to 
pressing problems. So very much main mission, but also 
troubleshooting.
    We saw incredible needs. And I can tell you the experience 
was very sobering, but also very galvanizing. So we are blessed 
to have an incredible team, and including my colleagues here at 
the dais, who are engaged not just substantively, but also 
understand the emotions at work and the challenges for all 
those on the island trying to resolve these issues.
    The overarching issue--and this has been highlighted by my 
colleagues--has been the lack of electricity. So if you can 
imagine dealing with these situations and having no power, so 
the lack of electricity has dramatically slowed down the pace 
and greatly complicated our collective response.
    In terms of our staffing, we have roughly 300 employees and 
contractors involved, with nearly 200 on the ground in Puerto 
Rico and the U.S. Virgin Islands.
    You will see in your written testimony, which all the 
Members should have, a more detailed analysis. I will try to 
highlight.
    In those bullets you will see reflections on wastewater 
treatment assessments, including plants, pump stations, trunk 
lines, wastewater treatment plants, a number of plants in 
service, still out of service. You will see reference to 
drinking water systems, and our assessment of these systems, 
both utility-driven and systems that are not within utility, 
particularly on Puerto Rico.
    In the Virgin Islands there is a focus on taking drinking 
water samples. There the drinking water system setup is 
uniquely different from Puerto Rico. There is a heavy reliance 
on cisterns, and so our group has been supporting local 
officials as they conduct assessments of those systems and 
disinfection, to make sure the supplies are adequate.
    We completed about 320 assessments of facilities covered by 
hazardous waste risk management and spill prevention, and 
assessed Superfund sites and oil sites.
    We are working with Army Corps and other partners to 
address debris--you have heard some reference to that. That is 
very complicated, because the debris tends to be commingled. So 
if you can imagine all of the waste being put into piles 
haphazardly throughout these islands--so our goal is to 
separate the waste, make sense of it, and treat it accordingly. 
That includes possibly burning some of the debris, although we 
are trying to maximize composting.
    In our challenges, just quickly, many roads are impassable, 
so we are still having trouble getting to people. There is a 
need for ongoing humanitarian aid. You heard that referenced 
here. Our teams have been trying to work comprehensively to 
provide additional support, really outside of our role, 
providing water--thank you, Mr. Faso--food, and supplies to 
remote areas where we are conducting assessments, and where we 
may be the first teams on the ground.
    Also, we are struggling with delays to transport heavy 
equipment to Puerto Rico.
    So, as we look to the future, Mr. Chairman, we continue to 
actively and thoughtfully respond to the devastation.
    One lesson that we learned is that every situation is 
different. No disaster is exactly the same. So we will focus on 
the geography, the focus on the demographics is critically 
important. And for U.S. policymakers--I know you are wrestling 
with that--how we provide funding and support remains an open 
question.
    So, in closing, Chairman, we are very proud of our 
engagement, we are very proud of our people. We are mission-
driven. And we treat them as extension of family. They are our 
neighbors, and we are very concerned about their best 
interests.
    Thank you, Mr. Chairman.
    Mr. Shuster. Thank you very much, Mr. Lopez. Now we will go 
to questioning. I just remind Members we are going to adhere to 
the 5-minute rule because I anticipate there will be lots and 
lots of questions today. So let's stick to the 5-minute rule. 
You will hear the gavel if you go over. So let's be respectful 
of everybody here's time, our time, and, of course, these four 
gentlemen that have, as I have said in the opening, a lot of 
work to do.
    So thank you all, each and every one, for being here.
    The first question I have is, Mr. Long, Administrator Long, 
you had a whole list of ideas that I think--every one that I 
heard, there is great merit to it. And Mr. DeFazio and I were 
talking about it. So that is something we really want to 
explore indepth with you as we move forward.
    And the dollars are precious around here, and I know that 
sometimes we don't spend money as wisely as we should, but I 
just saw there is a new study out that it used to be for every 
dollar you spent on mitigation you save three to four. There is 
a new study that came out that said it is one to seven. So 
mitigation dollars are important.
    And one of the things that you talked about, which I would 
like you to expand on----
    Mr. Long. Sure.
    Mr. Shuster [continuing]. Is these pre--the Hazard 
Mitigation Grant Program only becomes available if you have 
been hit. And we are talking about pre-mitigation dollars. Can 
you talk about that and the importance of it and what we in 
Congress can do, moving forward?
    Mr. Long. Sure. I would truly appreciate the opportunity to 
work with you to specifically change the Stafford Act. The 
Stafford Act is what guides my authorities to administer 
funding.
    Section 404 of the Stafford Act provides a formula that 
allows each one of your States, after a disaster, to access 
mitigation funding, based on a percentage of dollars obligated 
from public assistance. To me, that is totally backwards. We 
need to shift that to the pre-storm side.
    And it does a couple of things. It allows States to better 
plan for how they want to implement the key to their success 
for future disaster resiliency. If it is all put on after the 
fact, you can't plan and strategize how you are going to access 
funding, and ultimately to put your plans in place. It sounds 
very simple, but I know it takes a lot of work to do that. And 
I would love to be able to accomplish that with you and your 
support.
    Mr. Shuster. Again, you have a whole list of things that, 
again, Mr. DeFazio and I are up here shaking our heads saying 
we got to explore these things. So we look forward to working 
with you.
    Second question to Admiral Schultz. One of the little-known 
facts is we know you folks are out there doing great work, you 
are--not only are you responding, but you are usually in the 
eye of the storm. And there has been significant damage done to 
your assets in the Coast Guard. Can you talk a little bit about 
that?
    Because again, I think that is something that most 
Americans, most Members of Congress may not even know, is how 
hard hit the Coast Guard actually was.
    Admiral Schultz. Absolutely, Mr. Chairman. Thank you for 
the question. You know, we are nationally deployed all around 
the country. And in the areas that were hit by these storms, we 
have had significant damages to more than 40 facilities. I 
think if you roll up those damages in terms of cost to replace 
that infrastructure in the hundreds of millions.
    We have had wear and tear on our resources, we flew our 
helicopters, as I mentioned in my opening statement, you know, 
almost 2 full years' worth of operating hours in the 3-day 
period around Texas for support of Hurricane Harvey. So there 
is a roll-up cost that approaches or slightly exceeds $1 
billion here as impact to the Coast Guard.
    Mr. Shuster. And that was $1 billion?
    Admiral Schultz. $1 billion, roughly.
    Mr. Shuster. Yeah, because the number I got for your 
facilities was in excess of $500 million. But if you----
    Admiral Schultz. Yes, sir. Facilities, $500 million. I 
think when you roll in personnel cost, other things, some 
ability--I mentioned in my statement about reconstituting 
building facilities--standards, modern standards. That gets you 
to that number, just slightly over $1 billion.
    Mr. Shuster. All right. Well, thank you all. And again, I 
want to thank you all for being here. I may have further 
questions, but I have about 1 minute and 40 seconds left. I 
want to yield to the vice ranking member. I know she has to go 
down to the White House for a meeting, and I want to make sure 
she makes that meeting. It sounds like it is going to be a good 
meeting.
    So with that I yield the remainder of my time to Ms. Esty.
    Ms. Esty. Thank you very much, Mr. Chairman. And thank you 
so much for being with us here today. And I can assure you we 
have already been talking about forming a working group to work 
on this issue of how do we need to change the Stafford Act. And 
I think it is tremendously important that we learn from this 
and plan for resiliency. So I want to thank you all for your 
prior commitment to help us do right by this.
    I want to thank the chairman and Mr. DeFazio for allowing 
me to go out of order here today.
    But we are not here today only talking about how to get it 
right the next time. We are also here talking about what we 
need to do right now, today, to help American citizens who live 
in Puerto Rico and the U.S. Virgin Islands.
    I have 75,000 residents in my district--that is 1 out of 
every 10 residents of my district in Connecticut hails 
originally from Puerto Rico. They and their families want 
answers. They can't even find some of their folks. They still 
have, you know, three-quarters of the island without power, 
800,000 without water. We have hospitals with black mold. I had 
a meeting in my district the beginning of this week, and family 
members inland want to stay. They don't have roofs on their 
houses.
    You know, we are having real difficulty getting supplies 
around the island, so it is tremendously difficult. We know 
that, and we want to thank the FEMA workers and Coast Guard and 
everyone--you can imagine Coast Guard from Connecticut, we are 
very appreciative of their efforts. But we need to do better, 
and we need answers.
    And so, we ask again for your continued work with us to do 
better to work to allow debris to clear--to be cleared, to 
clear the roads, to get these supplies in as quickly as 
possible. But we are not there yet. We need to do better. We 
will be there with you and give you the resources you need, but 
we need to do better now.
    Texas and Florida got immediate relief in ways that Puerto 
Rico and U.S. Virgin Islands did not. They deserve it. All 
Americans deserve the aid of the Federal Government wherever 
they live in this great country.
    Thank you, and I yield back.
    Mr. Shuster. I thank the gentlelady, and I am going to go 
out of order again. I know that Mr. Smucker is going to the 
White House for that same meeting, so I am going to yield him a 
minute because I know that he has a lot of concerns that--Mr. 
Smucker, I yield you a minute.
    Mr. Smucker. Thank you, Mr. Chairman. I really appreciate 
that.
    I would like to first thank all of you for being here 
today, thank you for your service, and that--all you have done 
in response to--what has been very difficult, multiple 
emergencies, multiple hurricanes. So I really appreciate that. 
I know you have saved lives, and so we want to thank you for 
that.
    I had the opportunity just about 2\1/2\ weeks after 
Hurricane Maria hit Puerto Rico to join a congressional group 
and visit the island. And my friend from New York, who is a 
member of the committee here, Mr. Maloney, was on that trip, as 
well. And we had meetings with Governor Rossello, General 
Buchanan, FEMA, Coast Guard, the Corps, a lot of folks, not 
only did we survey the damage, but had meetings and received 
updates in regards to the progress that had been made at that 
point.
    And again, I think the takeaway from that was, you know, 
this is an all-out effort from each of your agencies to 
respond. It is a 24/7 operation. We saw the number of people 
that were on the ground. So there is no concern about the 
commitment from each of your agencies, from the commitment of 
the administration to respond.
    And I am specifically focused on Puerto Rico. My district 
is in Pennsylvania, but I also have a large number of people 
who hail from Puerto Rico, over 70,000 as well, so a lot of 
concern from folks in my district about family and friends in 
Puerto Rico.
    The--one concern, or--there were, of course, many concerns. 
But one of the other takeaways from that--again, this was about 
2\1/2\ weeks--I think it was 17 days after the hurricane hit, 
and the response around restoring the electrical grid, I will 
be honest, was unsatisfactory at that point. And there were 
many agencies, of course, that were involved with this. But 
we--or at least, speaking for myself--came away from there 
concerned that we did not at that point yet have a really good 
plan to restore the grid.
    So, I guess, you know, my first question is--and 
Administrator Long, I think you said it very, very well--
restoring the electrical power will solve a lot of other 
problems. It is absolutely clear that is the critical path 
activity.
    So, you know, at that point it wasn't even clear which 
agency was taking the lead. So I guess that is my first 
question in this regard, and I will start----
    Mr. Shuster. The gentleman--you can answer the question, 
but then we got to get back to regular order.
    Mr. Smucker. OK.
    Mr. Shuster. So I appreciate the gentleman's question, but 
go ahead and--who are you directing it to, anybody in 
particular?
    Mr. Smucker. Yes, Administrator Long.
    Mr. Long. Sure.
    Mr. Smucker. Tell us about which agency really is in charge 
of restoring the power.
    Mr. Long. Immediately after the storm we had no choice but 
to basically mission-assign the Army Corps of Engineers, who 
has been working around the clock on that. And that was 
actually done very quickly because of the diminished capacity.
    PREPA was nowhere to be found. And largely--that is not a 
shot at PREPA, that is just--they are also disaster victims, 
and the equipment was damaged, as well. So the bottom line is 
that we moved forward and mission-assigned the Corps to first 
do emergency power.
    So, before you even start to talk about the power grid, you 
have to make sure that the generators at hospitals are working 
and are fueled. You have got to clear the roads, you have got 
to do so many things. So there was emergency power, and then 
they folded over into, basically, the grid. So--and now General 
Jackson is here to--if you would like to say a couple words on 
what the plan is.
    General Jackson. Sure, I would love to do that. First of 
all, thank you for the question. I know this is on a lot of 
people's minds, so, Mr. Chairman, if I could take a few minutes 
to explain it, that would be helpful.
    Mr. Shuster. Sure, go ahead.
    General Jackson. I think one thing that is important to 
note is the Corps of Engineers typically does emergency 
temporary power through the use of our generators. That is part 
of our ESF-3 mission, that is what we have done in every storm 
so far. And typically, we flow into the affected area under a 
FEMA mission assignment. We do assessments, we install 
generators, and we deinstall generators as the grid comes up in 
operation.
    Typically, large-scale grid repairs are done differently. 
The affected public utility in the affected area activates 
mutual assistance agreements, and the multitude of public 
utilities from across the Nation flow in to provide additional 
capacity to allow that grid to be more quickly restored. That 
was the case in Texas, that was the case in Florida. That was 
even the case in the U.S. Virgin Islands. That was not the case 
in Puerto Rico.
    The Corps of Engineers does not have pre-scripted, pre-
awarded contracts, like we do for debris for temporary power, 
where we can quickly pull something off the shelf and award it 
and get things moving. We have to use our contingency contracts 
that we have, which are competitive contracts, to be able to 
bring in the resources that are required to do the work that we 
were mission-assigned to do. So I think that is important to 
note.
    Mr. Chairman, can I keep going, or----
    Mr. Shuster. I am sure you are going to get more questions 
on that.
    General Jackson. OK, OK, I will cover more at a later time.
    Mr. Shuster. All right. Well, again, I thank the gentleman. 
The gentleman from Pennsylvania can submit his other questions, 
as we are back to regular order.
    And with that, I recognize----
    Mr. Smucker. Thank you, Mr. Chairman.
    Mr. Shuster [continuing]. Mr. DeFazio for 5 minutes.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Again, Administrator Long, the chairman and I discussed--
and I think you have got a lot of great ideas about how to 
streamline the programs, and I want to work with you on that. 
And I particularly support the pre-disaster mitigation. I won't 
put you on the spot by asking you a question, but I will 
observe that the President's proposed budget cut pre-disaster 
mitigation by 61 percent, not going in the right direction. 
Hopefully you can have some influence on that.
    Quick question. On Puerto Rico and the Virgin Islands, have 
you made any request for the movement of goods by sea that has 
not been fulfilled by Jones Act carriers?
    Mr. Long. To my knowledge, the Jones Act--any time there is 
an issue that we would perceive that we would need the waiver 
from the Jones Act, we work very diligently with the Department 
of Homeland Security and Customs and Border Protection----
    Mr. DeFazio. Right. But, I mean, has there been anything 
you have wanted to----
    Mr. Long. Not to my knowledge.
    Mr. DeFazio. OK.
    Mr. Long. And we would be very careful. We do not want to 
get in--the Jones Act to get in the way of life safety.
    Mr. DeFazio. Right, OK, thank you. On--with--since we are 
on the issue of power, obviously the Whitefish Energy no-bid 
contract has received a lot of press. There is a provision in 
that contract--and another one, which I just became aware of, 
with a company called Cobra--for $200 million, no-bid contract. 
And both contracts say that, ``by executing this contract, 
PREPA hereby represents and warrants that FEMA has reviewed and 
approved this contract.''
    Did you or anyone at FEMA approve the Whitefish contract 
and/or the Cobra contract?
    Mr. Long. No, we did not. And there is not a lawyer within 
FEMA that would have ever approved that contract. And the 
bottom line is it was not our contract.
    And the other thing, to be clear here, is we don't approve 
contracts. We review and we make sure that our applicants are 
following 2 CFR.
    Mr. DeFazio. Right, right. So, basically, as I understand 
both these contracts, there is a big question about whether you 
could find them eligible for reimbursement. The local entity 
spends the money and then they apply to you for reimbursement. 
That is the way it works, correct?
    Mr. Long. It is----
    Mr. DeFazio. And then follow your guidelines.
    Mr. Long. So there is an OIG inspector. I know that even 
the Governor was concerned about it, so that----
    Mr. DeFazio. Right.
    Mr. Long [continuing]. He has also launched an 
investigation into it, as well.
    Mr. DeFazio. Well, there is--and again, in the Cobra 
contract, there is a very peculiar provision--and again, I am 
glad to hear your agency didn't approve it--because it says, 
``In no event shall PREPA, the Commonwealth of Puerto Rico, the 
FEMA Administrator,'' you, ``the Comptroller General of the 
United States, or any of their authorized representatives have 
the right to audit or review the cost and profit elements of 
the labor rate specified herein.'' That is in this Cobra 
contract to some company in Oklahoma. I mean what the hell is 
that about? I mean we can't review it?
    Mr. Long. That is not--again, we would never approve any 
language like that.
    Mr. DeFazio. OK.
    Mr. Long. And that language is added in after the fact.
    Mr. DeFazio. I am thrilled to hear that.
    Before I forget, I am going to ask unanimous consent to put 
the statement by Sheila Jackson Lee, who wanted to testify 
today, in the record.
    Mr. Shuster. Without objection, so ordered.

        [The statement of Congresswoman Sheila Jackson Lee is on pages 
        70-82.]

    Mr. DeFazio. OK. And then I would move on quickly to the 
Coast Guard.
    Again, Admiral, I believe the estimates I saw were, like, 
close to $1.3 billion in damages. Have you submitted a 
supplemental appropriation request? Because you are already way 
behind on, you know, your ongoing capital needs. Have you 
submitted a request to OMB for that to be included in the next 
disaster appropriation?
    Admiral Schultz. Yes, sir, Congressman. There was a request 
for that from OMB to the Departments here a couple weeks back. 
We have submitted our request that is more than $1 billion to 
the Department of Homeland Security, sir, and it is making its 
way up, I believe, to the Office of Management and Budget.
    Mr. DeFazio. Excellent. I am really happy to hear that.
    And to General Jackson, then, quickly, you didn't get to 
finish. I would give you--you get 1 minute if you could talk 
about anything else that relates to the grid. Because 
obviously, that is a critical problem. We don't have drinking 
water, because we don't have distributed electricity, and do 
you have anything to add in 1 minute to what you were saying?
    General Jackson. Congressman, I will go as fast as I can. I 
am from Georgia, so that may be hard.
    Mr. Shuster. Take your time in answering.
    General Jackson. The Administrator has already talked about 
temporary emergency power generation. That is a key element of 
our overall strategy to provide power to the island. We have 
put in over 400 generators. Just by comparison, we put in 307 
generators for Katrina, which was the largest in the past 
history of the Corps for our temporary generator mission. So, 
this is significant.
    We are also servicing non-FEMA generators under FEMA 
authority to provide additional capability for temporary power 
generation to critical facilities that are prioritized by FEMA 
and the Territory there on the ground. That is ongoing, it has 
been ongoing since Irma hit, and will continue to go on until 
we finish the grid repair mission.
    The second thing that we were asked to do--we got a FEMA 
mission assignment to do the grid repair mission on the 30th of 
September. So about 10 days after the hurricane, when it was 
apparent that that was the best course of action.
    So the bottom line is, since 30 September, we have awarded 
a competitive contract, brought in a 50-megawatt temporary 
power plant to hook into the Palo Seco plant in Greater San 
Juan that was designed to help stabilize the grid and be able 
to leverage the 602 megawatts of the entire grid, for the 
entire system at Palo Seco to be able to help provide power to 
the citizens in San Juan, where the largest population density 
is.
    We have also awarded two additional contracts, one to the 
Fluor Corporation, and one to PowerSecure, which is a 
subsidiary of the Southern Company out of the Georgia-Alabama 
area. Those contracts were awarded the third week of October, 
competitively. They had their advance party on the ground 
within a week, finding places to do life support, arranging for 
transportation, and they have already started flowing their 
crews in.
    Two big ships are due in within the next week that are 
bringing in over 300 pieces of rolling stock that will allow 
these folks to get up into both the transmission and the 
distribution systems across the island to start the restoration 
work.
    Additionally, the Corps, within a week of receiving our 
mission assignment, initiated the purchase of over $150 million 
worth of critical material that is required: 60,000 poles of 
different kinds, 6,100 miles of transmission wire of all high-
voltage distribution to replace. And we have gone from site to 
site to site with the Department of Energy and PREPA to 
understand what stocks they have on the island, to refine our 
requirements to get stuff in production, to go around to 
warehouses to find off-market materials, so that material is 
not going to be a limiting factor. And we have done a multitude 
of that over the last couple of weeks, and that material is 
flowing into Puerto Rico right now.
    So, within the next week or so we have equipment, we have 
people, we have material, all on the ground there to start 
making a much greater rate of progress on the power grid than 
is currently being done right now, which I know is frustrating 
to the Governor.
    Mr. DeFazio. Excellent, thank you.
    Mr. Shuster. Thank you, gentlemen. Again, I knew that 
question was going to come up. It is probably going to come 
again and again. But I think it is really important that people 
understand, because there has been a lot of criticism about 
what is going on in Puerto Rico, but the mutual aid agreements 
weren't in place. And, unlike the other States--which I think 
was pointed out by--I forget who pointed it out, but that is 
something we need to encourage everybody to make sure that they 
have.
    So, with that, just remind Members we are going with--when 
the gavel went down after that we are--go by seniority before 
that. But I know both sides operate in that way, so Mr. 
Farenthold is recognized.
    Mr. Farenthold. Thank you, Chairman Shuster. August 25th 
Hurricane Harvey made first landfall of the 27th District of 
Texas, the district that I represent. Over the next week he 
would slowly move up the coast, destroying homes, communities, 
and lives. Often TV news cameras go in search of the worst 
possible damage to make the most dramatic story on television. 
Well, in the case of Hurricane Harvey in the district I 
represent, you could have dropped a camera almost any place in 
towns like Rockport, Port Aransas, Aransas Pass, Ingleside, 
Refugio, Tivoli, Woodsboro, and others. And it would have been 
as dramatic as the worst footage they probably could have found 
in many disasters.
    Hurricane winds completely destroyed many of my friends' 
homes. Businesses were damaged or destroyed. And towns like 
Wharton had many neighborhoods left under water for days 
following the unprecedented flooding left by this storm, the 
worst we have seen in decades.
    I have visited the areas ravaged by Harvey, along with 
President Trump, Vice President Pence, and Governor Abbott, and 
I have seen firsthand the destruction caused by the hurricane. 
And I am working hard to make sure folks are connected with the 
resources that they need to rebuild.
    You know, a town like Rockport--just got an email from the 
mayor today. They have removed 1.3 million cubic yards of 
debris, and they are 53 percent finished. And they say they 
will be lucky to finish this year. And I have got to tell you 
there is nothing more psychologically painful than walking out 
and seeing your belongings, parts of your house, on the street. 
It is bad enough just seeing your trees there for months. But 
when it is your personal effects and your scrapbooks, I mean, 
it is heartbreaking.
    And I do want to thank the hard-working folks at FEMA, the 
SBA, the Army Corps, State officials, other Government 
officials. Everybody is working hard and trying to do their 
best, and I want to thank you. And we will rebuild. But there 
are a couple of questions that I want to ask.
    And Administrator Long, I think you and I have actually 
talked about this before. Earlier on in the process, in the 
first months or so, people would go online and fill out their 
applications for FEMA. And about a week later they would get 
this letter. Right up at the top it says, you have been denied 
FEMA aid, and then they would go through paragraph upon 
paragraph of legalese. And then at the bottom it will say, oh, 
by the way, you forgot to dot this ``i'' and cross that ``t.'' 
If you will reapply, we will probably help you out.
    Why can't you get a letter that doesn't just add insult to 
injury to folks?
    Mr. Long. I would be happy to work with you on that. A lot 
of times people are denied individual assistance without 
bringing proper paperwork or levels of insurance. I am very 
aware of that. I would be happy to work with you on the 
language for that.
    Mr. Farenthold. Thank you very much. And General Jackson, I 
want to talk a little bit about the Army Corps of Engineers. 
There are dozens, if not more, of authorized but unfunded 
projects in the area that have been declared disaster areas.
    For instance, up in the Houston area, there were 
improvements to reservoirs and levees that have gone for years 
not happening. Had those been funded in a timely manner, would 
the property damage, and even possibly the loss of life, been 
less?
    General Jackson. Congressman, that is a really difficult 
question to answer. I can tell you that I think every bit of 
flood control infrastructure that we can put in place can be 
helpful. How much specific property damage it would have 
prevented in this particular disaster is hard to tell because 
of the unprecedented amount of rainfall that came down that far 
exceeded anything that I think the area has ever seen.
    But I think that any piece that we can work with the 
Congress and the administration to get the funding for, working 
with the local authorities to get it put in place, all of that 
together will help to reduce the damages and hopefully reduce 
loss of life, as well.
    Mr. Farenthold. Surely after Hurricane Harvey--I began 
hearing from companies located along some of the waterways--the 
Colorado River and even some of the ports that were having 
trouble because they couldn't get the raw materials necessary 
because they were waiting for the Corps to get contracts or 
dredges in place.
    FEMA did a great job pre-positioning resources in Texas. 
Puerto Rico, obviously, more of a challenge. Has the Corps 
looked at pre-positioning or contracting for emergencies, 
where--or writing in your contract you have the ability to pull 
dredges off the other jobs or pre-position them in light of 
this happening? Because we saw gas prices go up 30 cents or 
more as a result of closed ports.
    General Jackson. Congressman, that is a great question. We 
monitor the dredge fleet very closely. Obviously, many of them 
are under contract to the Federal Government in various places. 
And we have the provisions to be able to quickly move them and 
repurpose them, based upon an emergency situation, and we have 
done that time and time again.
    Many of the dredges are working private jobs. And my 
experience has been that when we ask, the dredge companies are 
more than willing to do everything they can to try to 
reconfigure and move to wherever it is that we need them to do 
in the interest of the Nation.
    And so I am happy with the response, but we have a limited 
number and we have to manage it very carefully. But, we have 
great cooperation from the industry to help us turn on a dime 
when we need to.
    Mr. Farenthold. Thank you. I see my time has expired.
    Mr. Shuster. I thank the gentleman. And I recognize Ms. 
Norton.
    Ms. Norton. First, Mr. Chairman, I would like to thank you 
for the workman-like committee hearing you are holding. A 
couple of committees called off the hearing when the Democrats 
asked for a witness. You have had everybody here before us, and 
you have had all the agencies here before us. This is what real 
oversight is about.
    I certainly appreciate the testimony of the witnesses, and 
I appreciate that you have been working under quite arduous 
circumstances.
    Actually, the gentleman from Texas presaged my concern, and 
that is, for lack of a better word--perhaps, Mr. Long, I should 
turn to you--I will call preparation for the inevitable.
    Puerto Rico is an island. The Virgin Islands is a series of 
islands. Annually--if not annually, often I should say--they 
are the objects of frequent hurricanes, floods, and other 
natural disasters, almost on a predictable basis. Yet they are 
offshore. And unlike Texas, for example--which is far away, 
perhaps, from some supplies--or Florida, you--as we saw with 
the controversy about shipping, there is a big difference 
there.
    Yet it appears that the agencies were, if not unprepared--
and it does look like they were unprepared on the ground, or 
may even have been surprised about these inevitable events, 
given the slow response, for example, that both Puerto Rico and 
the Virgin Islands are complaining of.
    So what I really want to know, given the inevitable, why 
there isn't a virtual branch of FEMA, for example, on these 
islands. Why supplies aren't pre-positioned there, so that this 
kind of a dispute, which is predictable, about getting to the 
islands does not come up. It is not as if this is the first 
time we have encountered this. I would like to know what kind 
of preparations were made a year ago, when there wasn't any 
hurricane. And what have you learned about pre-positioning for 
the next hurricane, which could be next year?
    Mr. Long. You know, ma'am, I can't speak for what happened 
a year ago. Again, I have been in office 132 days.
    Ms. Norton. I am talking about looking to what happened a 
year ago, or the year before that, to decide what you are going 
to do next year, for example.
    Mr. Long. Right. Well, first of all, we do have a Caribbean 
area division office. OK, we do have people in place----
    Ms. Norton. Where is that located, sir?
    Mr. Long. It is in Puerto Rico, right outside of San Juan. 
And not only do we have staff there, we also have commodities 
prestaged.
    Ms. Norton. Could you tell me something about supplies, any 
of you?
    Mr. Long. Sure.
    Ms. Norton. Since these are offshore, why did supplies have 
to--a dispute have to arise about whether there were enough 
supplies there? Why weren't there enough supplies to at least 
begin to take care of a catastrophe?
    Mr. Long. We were there before Irma, we were there after 
Irma, we were rebuilding the power grid as Irma was passing. 
The second thing is that, as Maria was coming in, we resupplied 
food and commodities on the island in Puerto Rico. We also 
verified that Governor Rossello had food in all of the shelters 
that were there.
    And the problem with an island is that you can only shove 
so much food, so many staff into an island, and then you start 
to basically take away critical shelter spots for the citizens. 
So we actually had----
    Ms. Norton. You take away what? I am sorry.
    Mr. Long. You take away shelter spots from the citizens. We 
have mobilized almost 20,000 Federal Government workers----
    Ms. Norton. Mr. Long, I am talking about, basically, 
supplies. I know you can't preship power, but when it comes to 
supplies, you could have a warehouse.
    Mr. Long. We do.
    Ms. Norton. You know, you--and what I am trying to ask is 
have we learned that perhaps we need to pre-position a great 
many more supplies, basic supplies there, basic food, basic 
commodities, so that we don't have to depend upon how many 
trucks will pick up supplies in a devastation like Puerto Rico, 
for example, is experiencing. Have we learned? Can we rent or 
build a warehouse in those island communities so that we are 
not so dependent upon getting there in the first place?
    Mr. Long. Yes, ma'am. We have a warehouse. The question is 
is it large enough, and we haven't been able to do any----
    Ms. Norton. Can you make it larger?
    Mr. Long. I am sorry, I----
    Ms. Norton. I am asking you----
    Mr. Long. If I may answer the question?
    Mr. Shuster. Yes.
    Mr. Long. The question is we have not been allowed to do an 
after-action review of all the things, not just commodities. We 
do have a warehouse. The question is how do we expand that.
    But also, what is the role and responsibility of also the 
State and local governments to do commodities, not only from 
Puerto Rico, but across the States. If you look at the model 
way it is done, Texas has their own contracts, they store their 
own food. We backfill their ability to do the first 72 to 120 
hours' worth of commodities, if we are ever needed to be called 
in.
    Every State, every island should have that capability.
    Mr. Shuster. I thank the gentleman and, with that, 
recognize Mr. Barletta for 5 minutes.
    Mr. Barletta. Thank you. Before I turn to my questions, I 
want to thank Chairman Shuster for holding today's hearing. I 
thank the Members and all the witnesses for being here, as 
well.
    As chairman of the Subcommittee on Economic Development, 
Public Buildings, and Emergency Management, we have held a 
series of hearings and roundtables on how we can rebuild 
smarter and better after a disaster. In every instance, we 
found mitigation is a critical part of saving lives and 
reducing costs. We must build in mitigation on the front end 
and ensure that, as the communities rebuild from these recent 
disasters, we are building back in a way that will minimize 
damage in the next storm.
    So to these points I want to turn to my questions.
    Administrator Long, FEMA has expert personnel who get 
called to deploy when disasters strike. How can we support the 
work of FEMA personnel and ensure continuity in staffing and 
the response to and recovery from disasters?
    Mr. Long. In a multitude of ways. Look, my staff works 
under austere conditions away from their families. They deploy, 
they sacrifice a lot of their personal time to help others, and 
they work around the clock. And when it comes to pay capping, 
we could help there.
    The bottom line is I would like to redesign the entire 
workforce structure in the way we hire. I would like to move to 
an FBI or Secret Service model, where we hire in a true academy 
format. I would like to increase the footprint of FEMA. I would 
like to move us out of the regional offices and be embedded in 
stage agencies and on island Territories. I would like to have 
multifaceted teams that can approve plans, do things on the 
ground, rather than having to go back through a region or all 
the way to the headquarters.
    There is a multitude of things that we could do, and I 
would be happy to provide it to you in writing.
    Mr. Barletta. That would be great. I understand some States 
have robust State-level programs that can effectively leverage 
private investment in public infrastructure. The use of public-
private partnerships, or P3s, could be another tool that States 
impacted by disasters could use to help speed up recovery.
    Administrator Long, do you think allowing States to use 
such programs following a disaster could be helpful in the 
recovery process?
    Mr. Long. Absolutely. I ran a private-sector company for 6 
years before coming back to FEMA. And I am a true believer in 
public-private sector partnerships. We have to expand ways on 
how we utilize our business emergency operations center to get 
more private companies included.
    One of the things I would also like to do is introduce a 
private-sector toolkit to State and local governments, so that 
they understand what types of pre-event contracts they should 
have in place, and how to use them.
    Mr. Barletta. You know, we have been working to find ways 
to encourage mitigation in rebuilding after a disaster. What 
can be done to ensure that people don't just build back to the 
way things were? How can FEMA help ensure that the 
infrastructure is rebuilt or repaired better after a disaster?
    Mr. Long. So this is a concern. If you look at Puerto Rico, 
for example, there are deferred maintenance issues. Like the 
average age of the power plants are 44 years old, versus the 
global average of 18. When it comes to rebuilding, if we spend 
a lot of taxpayer dollars, which I would love to protect, and 
if we are going to do it, we need to be able to do it right. 
But I am not so sure that the Stafford Act gives me the 
authority to be able to do it in that manner.
    I also believe that disaster resiliency--the key to that 
success lies at the local elected official level when it comes 
to building codes and proper land use planning. It has got to 
be a greater partnership than what FEMA provides to State and 
local governments. It is a whole community effort when it comes 
to mitigation and how we focus on resiliency.
    Mr. Barletta. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Shuster. I thank the gentleman and now recognize Mr. 
Nadler for 5 minutes.
    Mr. Nadler. Thank you, Mr. Chairman.
    Mr. Lopez, I have to start by saying that I am greatly 
concerned about EPA's response to Hurricane Maria. It is eerily 
similar to EPA's response after 9/11 at the World Trade Center 
in my district in New York, when EPA infamously and incorrectly 
declared the area safe to breathe, and the water was safe to 
drink. Thousands of people became sick and hundreds died 
because of EPA's negligence and lying at that time. So I am 
very concerned with that precedent.
    Now, I hope you can finally clear up some confusion related 
to news reports of people drinking water from wells on the 
Dorado contamination Superfund site. On Tuesday an EPA 
spokesperson was quoted that water being pulled from the Dorado 
Superfund site is ``OK to consume, based on the analysis that 
we have done,'' a quote that could have come directly 17 years 
ago.
    The day before, EPA responded to committee staff to the 
very same question about whether people were obtaining drinking 
water from the Dorado site--that ``people are not drinking 
water from the EPA Superfund site wells.'' That is troubling, 
because it adds to the confusion, secrecy, and distrust of 
Government sources in protecting public health and the 
environment.
    So I have some specific questions regarding the Dorado 
Superfund site and EPA actions to protect human health from 
known contaminants on that site.
    The Dorado Superfund site was listed to the National 
Priorities List just last year, correct?
    Mr. Lopez. Yes, sir. That is correct.
    Mr. Nadler. Thank you. The Superfund site consists of a 
groundwater plume of industrial chemicals and solvents 
including TCE, PCE, chloroform, and other chemicals known to 
have adverse human health effects, both short-term and long-
term, correct?
    Mr. Lopez. Correct, sir.
    Mr. Nadler. Thank you. It is my understanding that two 
wells in the Dorado Superfund site, the Navarro and Santa Rosa 
well sites, still have active wells in operation, some of which 
the press has reported were used as a source of drinking water 
following Hurricane Maria.
    Mr. Lopez. That is also correct.
    Mr. Nadler. Has EPA investigated whether any other well on 
the Dorado site was used as a source of drinking water since 
Hurricane Maria?
    Mr. Lopez. So, sir, those are the two that we understand 
are the ones that are used on a interim basis by PRASA [Puerto 
Rico Aqueducts and Sewers Authority], which is the utility.
    Mr. Nadler. So the answer is you haven't investigated 
whether other sites were used.
    Mr. Lopez. Our understanding is that no other sites are 
used.
    Mr. Nadler. OK.
    Mr. Lopez. So those are the two.
    Mr. Nadler. It is also my understanding that when the 
Dorado Superfund site was listed on the NPL, sampling at the 
Navarro and Santa Rosa sites both found traces of these 
industrial chemicals, including chloroform, DCE, TCE, and PCE. 
Is that correct?
    Mr. Lopez. It is correct. Just as a note, though, if I may, 
so----
    Mr. Nadler. Talk a little louder, please.
    Mr. Lopez. If I may, the chloroform piece was a byproduct 
of chlorination. So that was an early indication that that is 
part of a public water supply.
    Mr. Nadler. But all of these chemicals were found there.
    Mr. Lopez. In terms of the----
    Mr. Nadler. OK.
    Mr. Lopez. If I may, in terms of the chemical analysis, the 
analysis is roughly--was conducted on a regular basis by the 
Department of Health on Puerto Rico and by PRASA. We also have 
done sampling.
    Ultimately, in terms of the threshold of safety, those 
levels for the Santa Rosa and----
    Mr. Nadler. OK, but----
    Mr. Lopez [continuing]. Are below safe tolerance levels for 
standard drinking water.
    Mr. Nadler. You are saying that all of these chemicals are 
found there, but they are below tolerance levels.
    Mr. Lopez. Correct, sir.
    Mr. Nadler. All right. Now the Wednesday news report quotes 
an EPA spokesperson saying that water being pulled from the 
Dorado Superfund site ``meets Federal drinking water 
standards.'' Is that based on EPA testing since the landfall of 
Hurricane Maria?
    Mr. Lopez. Yes, sir. We have testing underway. We actually 
completed the testing for bacterial, microbial----
    Mr. Nadler. So--but that statement that the water meets 
Federal drinking water standards, that is based on the EPA 
testing since the landfall?
    Mr. Lopez. It is, and we have the results in-house.
    Mr. Nadler. OK. Has EPA made all the drinking water 
sampling data publicly available?
    Mr. Lopez. We are working towards that, sir, and would be 
happy to provide a greater expanded----
    Mr. Nadler. But you haven't made it publicly available.
    Mr. Lopez. We have the VOC and the microbial. We still are 
working on the drinking water, and would be happy to----
    Mr. Nadler. And you will make all the sampling data----
    Mr. Lopez. Happy to do that, sir.
    Mr. Nadler [continuing]. Immediately available.
    Mr. Lopez. As soon as we have the available data, we can 
give it to you.
    Mr. Nadler. The press also reports that in 2016, when the 
Dorado Superfund site was initially listed on the Superfund 
National Priorities List, that EPA stated, ``Drinking water 
with the solvents which include tetrachloroethylene and 
trichloroethylene can have serious health impacts, including 
damage to the liver and increasing risk of cancer.''
    Now EPA is saying that the water is safe to consume. Is 
that because they are below threshold levels? Or why the change 
in position in just 1 year?
    Mr. Lopez. So there is no change in position, sir. There 
are thresholds that are part of the drinking water--safe 
drinking water standards. And in terms of testing, again, for 
the Navarro and Santa Rosa sites, those are----
    Mr. Nadler. All right. So your testimony is that all of 
these poisonous chemicals are there, but they are all below 
tolerable levels.
    Mr. Lopez. Sir, we are--again, our testimony is they are 
within drinking water tolerance levels.
    Mr. Nadler. Yes, but you said most of them----
    Mr. Lopez. Which are national standards.
    Mr. Nadler. All the ones I mentioned were there, but they 
are within drinking water tolerance levels.
    Mr. Lopez. Correct, sir.
    Mr. Nadler. Is there any scientific dispute as to what 
drinking water tolerable levels are?
    Mr. Lopez. I would have to get back to you on the detail of 
any scientific dispute. In terms of the standards, the 
standards are nationally known, and are regularly imposed, 
not----
    Mr. Nadler. And the reason I----
    Mr. Lopez [continuing]. Just in Puerto Rico, but in all 
communities across the United----
    Mr. Nadler. The reason I ask the question----
    Mr. Lopez. But----
    Mr. Nadler. And my time is expiring, so let me give you 
quickly here--is because this is exactly what we got from EPA 
after 9/11. All the toxins in the air were below tolerable 
levels, they were all OK, and everybody was going to be fine, 
and thousands of people are sick and hundreds of people are 
dead because they weren't fine. And that is why I am very 
skeptical.
    I thank you, I yield back.
    Mr. Shuster. I thank the gentleman. With that I recognize 
Mr. Webster for 5 minutes.
    Mr. Webster. Thank you, Mr. Chair. Thank you all for what 
you have done in Florida. And a lot of our counties have taken 
full advantage of category 8 funding, Mr. Long, and I would 
just like to say a little bit about that. And it has helped 
immensely.
    The 30-day window for some of us in some of our counties is 
a concern. I wrote 3 weeks ago a bipartisan letter. Actually, 
it was signed by me and others in the Florida delegation, 
talking about the fact that in my district many of the homes 
were still under water at that time because Florida is flat. 
And when the rivers crest, it runs everywhere. And so many of 
them could not even do an assessment a month after, which is 
just about the time the 30-day window was dissipating, and 
there wasn't going to be an opportunity.
    And so, we were hoping there could be some flexibility in 
that 30-day window because of the fact--not only was it 
impossible to do the debris cleanup, it was impossible to do an 
assessment of what that would take.
    And so--and I just--I get an update from FEMA every day on 
flood alerts, and there is still one existing on St. Johns 
River, which is part of my district, also, along with the 
Withlacoochee River.
    And so, anyway, we had a lot of lakes. Takes them a while 
to drain into the rivers. When they do, that crest moves down 
the river, it floods everywhere, and it is usually past the 30 
days. So I don't know if there is any way that could be 
modified. I know the State has a role in setting that. But 
could there be a dual track, or could there be an opportunity--
and this is not the first time I have brought it up, but I just 
think it is something that is still concerning--just within the 
last week, along the Withlacoochee, did the flood waters go low 
enough to where it is almost below flood stage.
    And so, anyway, what can you say about that?
    Mr. Long. I would be happy to look into that. In some 
cases, the 30-day window is dynamic, where you can shift it to 
where it is more effective at the local government, but let me 
go back and verify that. And not only that, we can also discuss 
with Governor Scott the length----
    Mr. Webster. Right, because this is--it is not just a 
couple of days, you know, it is weeks. And the storm is gone, 
the wind is gone, the rain is gone, the surge is gone. It is 
just these flood waters are still there, and it is still 
affecting thousands of my constituents.
    Mr. Long. I would be happy to follow up with you.
    Mr. Webster. Thanks a lot. I yield back.
    Mr. Shuster. I thank the gentleman and now recognize Mr. 
Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. So, being the ranking 
member on the Aviation Subcommittee, I really have questions 
regarding the role of aerial surveillance and sort of the 
immediate response, as well as an evaluation of disaster and 
what to do next.
    So for Mr. Long, can you walk through the process that FEMA 
and FAA use to considering airspace waivers so you can better 
utilize unmanned aerial systems in the evaluation of damage, as 
well as providing direction to your folks?
    Mr. Long. Great question, understand the concern, because 
the air traffic control system was totally wiped out, which 
made it even more, you know, complex to sequence aircraft in, 
as well as the air traffic control above the islands.
    I would have to follow up with you specifically on that 
question on how we can work closer together on whatever 
decisions we can make.
    Mr. Larsen. Yes, could you do that? Could you--so you have 
provided a list in your testimony of a variety of directions 
you will--are going to take sort of in your after-action 
report. So I would ask you to include that set of questions and 
that set of issues in your AAR, because of the clear role that 
drones are playing in not just commercial space, but also in 
disaster relief and response.
    We did hear quite a bit about how drones assisted emergency 
response in Texas and Florida. So were they used specifically 
in USVI and Puerto Rico, as well, from----
    Mr. Long. I do not know, but I would like to work with the 
Congress. You know, particularly, we get a lot of complaints 
about the speed in which the inspection process takes place.
    Mr. Larsen. Yes.
    Mr. Long. One of the innovative ways we can move forward on 
that is through aerial imagery and desktop assessments, rather 
than having to find thousands and thousands of inspectors to go 
door to door. I am all for expediting processes through 
technology, just like that.
    Mr. Larsen. Yes, there were--I don't know how much detail 
you can get into with the use of drones, but you can get some 
detail. Insurance adjusters were in the office a few weeks back 
to talk about how they are now beginning to use unmanned aerial 
systems for claims purposes, and so there may be some routes to 
go.
    So, Admiral, can you expand a little bit on if Coast Guard 
used drones, drone technology, for your assessments?
    Admiral Schultz. Yes, sir, Congressman. First off, the 
short answer is no, we did not use drone technology in any of 
the response operations. We are doing some partnership with 
Customs and Border Protection on drones for some of our 
maritime enforcement-type duties.
    One caution I would say, when we talk about response 
operations and drones in the airspace, so when we rolled in and 
were responding to Harvey, at one point we had more than 40 
helicopters flying in the area with fixed wings, flying C2. 
First 2 days, first 36 hours, you know, the other agencies--
National Guard, Department of Defense--were falling in on our 
operations. When Department of Defense started coming in 
heavily, you know, you start having a very convoluted, clouded 
airspace. We had Coast Guard helicopters with aircraft stacked 
on top of that.
    Mr. Larsen. Yes.
    Admiral Schultz. There is an airspace deconfliction safety 
thing.
    I think there is a role for drones, an appropriate role for 
drones in certain times.
    Mr. Larsen. Yes, and I agree that the space gets 
conflicted, it is crowded. My point is that the technology is 
advancing to a point where maybe you can relieve some of that 
fixed-wing aircraft. Maybe you can relieve some of that rotor 
aircraft and use different technology to achieve the same 
thing. And that is just, again, looking forward. It is probably 
worth looking at.
    Admiral Schultz. Absolutely, sir. I think we are embracing 
the technology. We are looking at, you know, bringing unmanned 
systems more on board the Coast Guard. We have done some work 
out at sea. And like I said, I think there is definitely 
technological advances, as the Administrator said. I think we 
support that. I just caution, as we move into that space----
    Mr. Larsen. Yes, yes.
    Admiral Schultz [continuing]. There is just some balance 
there to look at.
    Mr. Larsen. Well, the big, big issue we have is traffic 
management in this world on that.
    General, do you have any thought on that, as well?
    General Jackson. Sir, we have, in many cases after 
disasters, used unmanned surveillance to verify damages to 
systems, unleveed systems, or whatever, that are hard to 
access.
    In Puerto Rico, we didn't have a need. We had access to be 
able to get out to the sites we needed to, so we didn't need to 
use them. But we do have them, and have used them in the past.
    Mr. Larsen. Yes, I am sure. All right.
    Mr. Lopez, you are off the hook. You are off the hook, Mr. 
Lopez, I will yield back.
    Mr. Shuster. I thank the gentleman and, with that, 
recognize Mr. Graves for 5 minutes.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman.
    Mr. Long, first of all, I want to say that I--I want to 
commend you for your testimony and your statements so far. 
Having been through a number of hurricanes and other disasters 
in a previous life, you sound like someone who has been on the 
ground and actually dealt with these things. And I know that we 
did somewhat cross paths when you were working in Alabama.
    But I want to urge you, as you deal with the bureaucracy, 
keep the perspective of focusing on people and outcomes, 
because we are continuing to see all sorts of challenges in 
recovery that I think are items that can be preventable with 
the right leadership.
    First, I know you are aware of this, but I want to remind 
you anyway, we did have a 1,000-year storm in Louisiana last 
year. It was an unnamed storm. We received more rainfall in 
about a 36-hour period than most Americans receive in an entire 
year. And we still have much devastation from that. And 
certainly our friends in Texas, Florida, Puerto Rico, and the 
Virgin Islands need much attention and the focus of FEMA at 
this point, but we still have a lot of lingering concerns in 
Louisiana, as well.
    You talked about leaning forward on pre-disaster 
mitigation. I couldn't agree with you more. The fact that you 
come in and use HMGP [Hazard Mitigation Grant Program] after a 
disaster--statistically, that is not the way--the place where 
we should be investing dollars, yet it is what we do.
    There is a particular concern--and I understand that 
Chairman McCaul might have noted this. Right now, under the 
Stafford Act, there is a provision called duplication of 
benefits. There are many projects that your friend two people 
over, General Jackson, runs regarding the Corps of Engineers, 
where the Corps doesn't have sufficient funds to implement a 
project. Yet after a disaster you have situations where FEMA 
comes in and gives hundreds of millions--or, in some cases, 
billions--of dollars to a community for hazard mitigation, 
reducing flood risk or other types of hazard risk in the 
future.
    Why in the world would FEMA prevent a State, a municipality 
from using those dollars to finish a Corps of Engineers project 
that has been through cost of benefit scrutiny, been through 
environmental scrutiny, and is viewed as having the greatest 
return of investment for Federal dollars?
    Mr. Long. I can't speak on the individual issues that you 
are talking about specifically, but the issue, nationwide, is 
fragmented recovery when it comes from--you know, have we ever 
taken a look across the Federal Government as to the number of 
funds that come down not only from FEMA, but HUD, economic 
injury loans, and how we actually streamline them and use them 
concurrently to do the greatest good? I am all for that.
    Trust me, it is too confusing. And local governments and 
State governments have to basically hire consultants to be able 
to come in and help them navigate that funding. I would be 
happy to meet with you specifically to overcome the issues with 
that policy. If we are standing in the way, I don't want to do 
that. I want to do what is right, and I want to do what makes 
sense.
    Mr. Graves of Louisiana. This duplication of benefits issue 
and the way it is interpreted has some very serious flaws. I 
had the opportunity to meet with the chairman and the ranking 
member on it, and had very productive discussions there, and 
the subcommittee chairman, as well.
    There is a belief on the part of FEMA that you are going to 
duplicate Corps of Engineers money by using these FEMA dollars. 
Nobody is asking to build these projects twice. That is an 
idiotic response. And if we are all trying to be good stewards 
of Federal dollars, this just doesn't make sense.
    Similarly, on the duplication of benefits issue, there is a 
position within FEMA now that if someone applies for an SBA 
loan that is duplicative of, well--duplicative of a Community 
Development Block Grant, Disaster Recovery Grant--I don't know 
how people view a loan being duplicative of a grant. Those are 
two totally different things. And so I just want to ask if we 
can work together to try and resolve some of these things, 
because these are not in the best interest of flood victims.
    Mr. Long. Absolutely, and I agree with you. It is way too 
complex. In some cases, where does FEMA's assistance begin and 
end, versus some of the other agencies? We have got a lot of 
work to do to streamline, and I haven't had a chance to catch 
my breath to be able to put forward my vision of emergency 
management and the way we should go forward. I would be happy 
to work with you, because that is one of the initiatives of 
streamlining fragmented recovery across the Federal Government 
that I would love to be able to put forward.
    Mr. Graves of Louisiana. Thank you. I think I could 
probably sit here for an hour and ask you questions. I am going 
to try and get two other things in real quick.
    Under staff--the law says that when you are applying 
deductions for facilities--and the law specifically says 
``facilities''--that you are to deduct $500,000 per facility 
whenever providing assistance for schools and other flooded 
structures. Yet FEMA has come in and determined that a school 
should consist of a $500,000 deduction for a gymnasium, a 
storage facility, one classroom building, another classroom 
building, cafeterias, or whatever else.
    So in some cases you could have millions of dollars in 
deductible coming from one school facility from a community 
that is entirely flooded, like in Livingston Parish, Louisiana. 
They don't have the ability to actually reopen their schools 
because of this structure versus facility interpretation from 
FEMA.
    And lastly, I just want to say that on HMGP and other 
things, perhaps coming in and looking at ideas like a block 
grant, we also need to work together on housing and trailer 
issues. But again, I could probably sit here forever.
    I want to thank you for being here and urge you to keep the 
bold perspective.
    Mr. Shuster. I thank the gentleman and now I will recognize 
Mrs. Napolitano for 5 minutes.
    Mrs. Napolitano. Thank you, Mr. Chairman, and thank you for 
the witnesses for being here.
    I might add although today's focus is on the east coast 
natural disasters, I would like to acknowledge the 
unprecedented hardships faced by the western communities this 
year with historic storms in the past winter and tragic fires 
that we are still addressing today.
    The 2017 severe winter storms in California cost $1.2 
billion in damages to our State and highway system that is 
eligible for the Federal Highway Administration's disaster 
relief program, but DOT is sitting on $911 million in disaster 
relief program funding they have not obligated to the States, 
plus sufficient funding to cover $4.1 billion in outstanding 
Federal disaster obligations owed to California through the 
years since 1983.
    DOT needs to obligate the money they already have for 
disaster relief, and needs to increase the funding to the 
Federal Highway Administration in disaster supplemental. 
Wildfires in California have been devastating--245,000 acres 
have been burned, 8,800 structures have been destroyed. In the 
peak of the wildfires, 11,000 firefighters battled 21 major 
fires that forced 100,000 people to evacuate, 43 lost their 
lives. And on October, the President approved a major disaster 
declaration. Over 300 homes were burned, a whole city was 
devastated.
    According to the California Office of Emergency Services, 
California has $2.1 billion in outstanding Federal disaster 
assistance funding that has not been allocated. We need to pass 
emergency supplemental that addresses the disaster assistance 
and prevention for the whole country.
    In going back to this, Administrator Long and General 
Jackson, can you discuss FEMA's and the Army Corps' efforts to 
address these happenings in California?
    Mr. Long. Yes, ma'am. I personally made a visit and met 
with Governor Brown in California regarding the wildfires. And 
I got to tell you the urban wildfire that impacted mostly Santa 
Rosa and Napa and Sonoma Counties is one of the most disturbing 
events I have ever seen in my career. There are actually--the 
last count--and I am sure it has grown--6,800 destroyed homes, 
and the fire was apparently moving at 200 feet per second. And 
I am very aware, we are there with Californians, helping them 
to respond and recover.
    When it comes to expediting funding--and, you know, here 
again it is a partnership--in many cases it takes three levels 
of Government to make sure that the money can go down. I mean I 
am always in this balancing act--or FEMA is--of expediting 
funding down quickly to activate, you know, recovery, but then 
also staying within OIG expectations of making sure that we are 
utilizing taxpaying dollars.
    I do believe that section 428, the pilot program within 
FEMA, you know, within the Stafford Act, is the way to go. I do 
believe that we need to do more to expedite funding down, but 
ensure that project controls and grant monitoring and oversight 
training is provided at all three levels and upheld. It has got 
to be more than FEMA making sure that the taxpaying dollars are 
being used correctly.
    And so I am--we are with you in helping Californians 
recover.
    Mrs. Napolitano. Well, the wildfires were not expected. So 
we need to expect the unexpected. And I am sure that we need to 
expedite the use of agencies' ability to respond immediately, 
due to the severity of the disasters.
    In other words, can we find a way to work together and 
eliminate--not eliminate, but waiver some of the restrictions 
the agencies have on certain things? Because waiting in Puerto 
Rico is outstanding, it is just too long. And the people are 
still--some of them still don't have power, they still don't 
have housing, they still don't have potable water.
    Could there be a way to be able to get some of those things 
done, addressed immediately?
    Mr. Long. I would be happy to work with you on any waiver 
issues that you may have. I would be happy to work with you to 
understand them better.
    Mrs. Napolitano. OK. And is the energy going to be restored 
to modern standards, instead of the 1950s standards?
    General Jackson. Ma'am, we are going to repair the system 
to get the power restored to the condition it was before the 
storm. That doesn't mean it is going to be repaired with 1950s 
parts; it is going to be repaired with modern parts. It is 
going to be repaired to current electrical code. But there is 
not going to be any overarching improvements to the system. For 
example, if a line is above ground, it is going to remain above 
ground. We are not going to put it below the ground.
    Mrs. Napolitano. Well, certainly.
    Mr. Chair, I would like to submit for the record some 
letters from the Governor of California.
    Mr. Shuster. Without objection, so ordered.

        [Letters from the State of California are on pages 179-186.]

    Mr. Shuster. I thank the gentlelady.
    Mrs. Napolitano. Thank you, gentleman.
    Mr. Shuster. And just--General Jackson, I spoke to General 
Semonite about the underground-aboveground, and he told me that 
some of the power lines, when they are dealing with hospitals 
and public safety and security, will be underground. But to do 
the whole system underground is just cost prohibitive.
    General Jackson. That is correct, Mr. Chairman. There are 
underground lines there now. And so those, if they have 
sustained damage, will be repaired and will be underground. But 
the vast majority of the transmission lines are above ground 
across the island.
    Mr. Shuster. Thank you very much. And with that, I 
recognize Mr. Weber for 5 minutes.
    Mr. Weber. Thank you, Mr. Chairman. I represent District 14 
on the Texas coast, the first three coastal counties from 
Louisiana. We are ground zero for Harvey flooding. Harvey was a 
three-rain event for us. It came in at Rockport and Corpus 
Christi, and we got the bad side of the wind and the rain.
    Then it went up above us, it rained in all the watersheds 
north of us. And then it moved down and back on top of us and 
into Louisiana. About 80,000 homes were flooded out. My guess 
is probably 40,000 of those people are still out of their 
homes.
    Then, to Admiral Schultz, as I criss-crossed the district, 
we were able to fly over with our great Coast Guard and see it 
firsthand. I have learned more about disaster relief that I 
hope I never, ever have to use again. So I appreciate you all's 
work. I tell people that Harvey brought the downpour, but 
Texans and friends and neighbors brought the outpour. And so we 
appreciated all that response.
    Ike was the forgotten hurricane. Let me tell you about our 
district. My district on the Texas gulf coast produces 60 
percent of the Nation's jet fuel, almost 20 percent of the 
Nation's gasoline, east of the Rockies. We are the 13th largest 
exporting district out of 435 Members of Congress. We have 60 
percent of the Nation's strategic petroleum reserve. We have 
the largest petrol chemical refinery in the Western Hemisphere, 
the second largest in the world. We produce a lot of gasoline 
and fuel, especially jet fuel. You saw fuel prices spike after 
Harvey.
    So Sabine-Neches Waterway, which has the Port of Beaumont 
and Port of Port Arthur on it, Port of Beaumont sends out more 
military personnel and equipment than any other port in the 
United States. That is how important this is. Sabine-Neches is 
shoaled in. It is extremely important--the Sabine-Neches is the 
second largest waterway on the gulf coast, second only to the 
Mississippi River. This is a hugely important district. If you 
added a congressional district or two north of me, then we 
produce 80 percent of the Nation's jet fuel, almost 40 percent 
of the Nation's gasoline east of the Rockies. It is a huge 
energy district.
    We dodged a bullet with Ike. Ike almost hit the Houston 
ship channel and brought a 20-foot wall of water up into the 
ship channel. Had that happened, we would have devastated the 
Texas energy economy, produced fuel prices--although it already 
did, because a lot of the refineries were shut down after Ike.
    And so this infrastructure, being on this committee, is 
extremely important. This infrastructure needs to be 
highlighted, how important it is. You just cannot imagine how 
important it is for our State, for our Nation, because it is 
national security. We can't--we need to fly jet planes and 
tanks and all kinds of things.
    Ike--I want to talk to Mr. Long with FEMA. There are some 
backlogged FEMA claims still held up from Ike. Now, let's put 
this in perspective. Ike landed ashore on September the 13th, 
2008. We would like to see FEMA come back and pay the counties 
for debris removal. There is a lot of claims out there that 
would help make whole some of these small communities.
    We need to absolutely have an ounce of prevention worth a 
pound or, in this case, millions of pounds of cure. So I would 
like for you gentlemen--Mr. Long and perhaps you, Major General 
Jackson--to give us a white paper of three things that we could 
do better in preparedness to make sure we have got better 
infrastructure, that you work well with Texas agencies, as I--
well, all of our agencies.
    As I said, Mr. Long, I have learned more about disaster 
recovery than I thought I ever wanted to know. And you are 
right, Texas does a fairly good job. But we rely on the Federal 
Government for backup. When Ike hit we pretty much repaired our 
own State. The week after Ike--I call it the forgotten 
hurricane, because a week after Ike, the world recession came 
into--the bottom of the stock market fell out, the housing 
bubble burst, and Texas pretty much did most of the stuff on 
its own for Ike. So we cannot afford to do that. The Governor 
of Texas now has submitted a request for about $61 billion, 
just a few days ago, to Congress.
    We can do things to make the coast better. We can do 
things--we are going to have another hurricane. We can do 
things to make sure we protect our energy supply, protect our 
ability to get the military in and out of the Sabine-Neches 
Waterway. They were in the middle of an exercise, and they had 
to shut it down because of all the shoaling.
    Would you all be willing to give us just a white paper--I 
would go with you, too, Admiral Schultz--three things we could 
do better to prevent this in the future?
    Mr. Long. Absolutely.
    General Jackson. Yes, sir.
    Admiral Schultz. Likewise, sir.

        [The U.S. Coast Guard has provided the following three ways 
        that the Service can improve disaster response preparedness:]

        Three ways the Coast Guard could improve preparedness to 
        respond to disasters such as the hurricanes of 2017 are:

        Rebuild Facilities to Modern Resiliency Standards: At a 
        minimum, the Coast Guard must rebuild its damaged shore 
        infrastructure to pre-hurricane conditions, but more 
        importantly the Coast Guard should rebuild with a focus on 
        resiliency to withstand damage from future events to ensure 
        uninterrupted response operations.

        The hurricane supplemental request the administration provided 
        to Congress is sufficient to restore Coast Guard's depleted 
        operational response costs and repair our damaged 
        infrastructure to pre-existing conditions, but additional 
        funding would be needed to invest in Coast Guard facilities to 
        meet modern resiliency standards.

        Restore Readiness: While the Coast Guard was able to meet the 
        Nation's call responding to all three disasters this past year, 
        this response has a cost. Operational missions, patrols, and 
        training were canceled, additional unplanned hours and fatigue 
        were incurred on Coast Guard ships and aircraft, and increased 
        maintenance and repair will be required. All of this erodes the 
        Coast Guard's future readiness without adequate resourcing. 
        Like the other armed services, the Coast Guard has experienced 
        significant deterioration in readiness, and its aging assets 
        are in dire need of operations and maintenance restoration 
        until recapitalization of these capital assets can occur. But 
        unlike the other armed services, the Coast Guard has not been 
        included in efforts to rebuild and restore military readiness 
        simply because most of the Coast Guard's budget does not fall 
        under the ``defense funding'' umbrella. The Coast Guard's 
        budget is not protected within the ``non-defense funding'' 
        category, requiring the Service to compete with every other 
        Federal discretionary account to merely sustain critical 
        operations.

        Grow the Coast Guard to Meet Increasing Manpower Requirements: 
        The Coast Guard needs to grow by 5,000 Active Duty members and 
        1,100 Reservists over the next 5 years to meet increasing 
        mission demands and effectively respond to contingent events.

        The Coast Guard must be ready to respond at all times and that 
        demands a full strength and highly trained workforce. Unlike 
        the other Armed Forces, the Coast Guard does not garrison its 
        forces, and during contingency responses it must take forces 
        from the front-line.

        The Coast Guard has been relied heavily upon to support man-
        made and natural disaster responses, most recently associated 
        with the 2017 hurricanes. While the current Reserve workforce 
        was able to support the immediate response to these hurricanes, 
        the Coast Guard does not have the ``bench strength'' necessary 
        to maintain surge operations for an extended period of time.

    Mr. Weber. Mr. Chairman, I yield back 7 seconds.
    Mr. Shuster. I thank the gentleman. With that I recognize 
Mr. Sires from New Jersey for 5 minutes.
    Mr. Sires. Thank you, Mr. Chairman, and thank you for 
holding this meeting. Thank you for all the work that you do.
    I represent the Eighth District of New Jersey, which is 
across from New York City, Hoboken, Jersey City, the whole area 
that was hit pretty hard by Sandy. And I hope that we can work 
together on streamlining this whole mitigation process, because 
I have been working for the last 5 years on a project, trying 
to get something from FEMA that was rejected. Tell them why, 
then you appeal, they say you are still rejected, they don't 
tell why. It is not a big project, but the response is just 
ridiculous. And it takes forever to get a response. So I hope 
that we can work together on that.
    But my question has to do with Puerto Rico, and I hope you 
can help me determine this. I know that New Jersey has sent 
State troopers through to Puerto Rico, and I have some--that I 
have spoken with. Pretty lawless over there now. And I was 
wondering. Do you have an input, do you determine, or do you 
have a recommendation on how many National Guards are sent to a 
site like Puerto Rico? When you get there do you maybe--do you 
say, well, we don't have enough National Guards? Do you also--
--
    Mr. Long. We would be happy to get you the specific number 
that was there pre----
    Mr. Sires. Well, there are 4,000 there now.
    Mr. Long. Yes, so----
    Mr. Sires. There are 4,000 there. But I don't know if it is 
enough. What I am saying is when you are there and you see how 
bad the situation is, do you pick up the phone and say to 
somebody, look, I think we need more help, or you don't say 
anything, or you don't have the authority, or you don't talk to 
anybody.
    Mr. Long. Sure. So right now in Puerto Rico and the Virgin 
Islands we have roughly 20,000 Federal--that is civilian and 
DoD--officials on the island. Now, if you put that number into 
context, 20,000 people is like the average population of most 
American cities. We have deployed, basically, an entire city's 
worth of Federal Government workers to the island.
    Now, there are thousands of DoD officials there, in 
conjunction with the National Guard. But I would be happy to 
get you a specific number.
    Mr. Sires. OK. No, because one of the things that I was 
talking to the State trooper from New Jersey, he says it is 
pretty lawless. And I was just wondering if the people that you 
have down there, are they safe in some of these areas?
    Mr. Long. I--you know, I would be happy to look into the 
lawlessness piece, but I have not heard that. Now, is there 
everyday crime that takes place, as normal in Puerto Rico? 
Probably so. But I have not seen lawlessness.
    And quite honestly, you know, one of the things that--
because of the response effort, we kept security in check, you 
know, after Maria went through. I am not aware of what you 
would determine as lawlessness.
    Mr. Sires. Well, I mean, just a State trooper would not lie 
to me. I mean I know him pretty well. And there are a number of 
them there.
    But if you could get that information for me about the 
National Guard, because I think that is important. And I think 
you should--if you are there on site, and you can make a 
recommendation that maybe we don't have enough, you know, I 
think that would be great.
    Mr. Long. Absolutely. And, you know, I speak with Governor 
Rossello on a regular basis. And not only that, but we have 
constant communication with all 78 mayors that are there. And 
in addition to that, we have over 100 intergovernmental 
representatives embedded with all the mayors in Puerto Rico on 
a day-in and day-out basis. So we use them as sensors to make 
sure that we are trying to do everything that needs to be done.
    Mr. Sires. Well, and as far as trying to streamline, you 
can count on my support on streamlining, because it is just 
very frustrating dealing--when you have a situation as bad as 
you have had in some of these areas, and you get very little 
response, and it takes forever--I mean this is 5 years later 
that I am dealing with this. And I know he was talking about 8 
years ago, you know, 8 years later.
    And one of my pet peeves--I will finish--I don't know if 
you have anything to do with this, but I just hate these 
airlines. They charge you $900, $1,000 for people to come to 
the States, and $90, $100 to go there. And you might not have 
anything to do with it, it might not be your responsibility, 
but I think we should look at this. Because I have about 80,000 
people from Puerto Rico in my district. And one of the things 
that they are trying to do is alleviate the situation that the 
family has. And they are telling me that they are charging 
$900, $1,000 to come to the United States, when it is only $90 
or $120 to go to the island. I think that is something that 
this committee should look at. I am not saying that you should. 
You got enough on your plate.
    Thank you very much.
    Mr. Davis [presiding]. The Chair recognizes Mr. Mast from 
Florida for 5 minutes.
    Mr. Mast. Thank you, Chairman, and thank you all for your 
testimony. I will be brief with my questions.
    As you, General Jackson, you know, we have had 
conversations before. My district is a ground zero for 
stormwater across the breadth of Florida. Whenever we have a 
hurricane coming through there or several hurricanes, water 
goes towards the Kissimmee River from the breadth of Florida. 
It flows down into Lake Okeechobee, and then it flows into my 
backyard. This is largely freshwater and it goes into our 
saltwater estuaries.
    So I want to ask a little bit about this in terms of 
emergency response, this in the context of emergency response 
and what goes on there.
    Vice Admiral Schultz, you did speak about your role as 
responding to oil, chemical, and hazardous material spills. And 
in your purview, does stormwater ever fall into hazardous 
material? Or in your purview have you ever seen that be 
something that falls in there?
    Admiral Schultz. Sir, I do not have much expertise in that 
stormwater piece of that. Generally it would be a vessel that 
would bring us out to a site. We work very closely with EPA. 
And in that type of situation, we would come out generally to 
remediate, you know, oil on a vessel, other type of hazardous 
chemicals on a vessel. The actual stormwater, testing of 
stormwater, generally I am not familiar with that being our--I 
am not sure if my EPA colleague has something to add to that, 
or not.
    Mr. Mast. Trying to look for clarity on hazardous--really, 
for--take it from any of you, clarity on hazardous materials.
    Admiral Schultz. Hazardous material in a wet, maritime 
environment generally brings out attention out there, and we do 
get involved with that under ESF-10. And, like I said, from a 
vessel standpoint, there are 3,600-plus vessels. Down in 
Katrina there are different hazmat things that have floated 
into the city that drew our attention.
    So I think it depends on the specifics, sir, and we will 
certainly work with your staff to understand if there is 
something particular you are looking at. We will try to be 
responsive----
    Mr. Mast. Quite often the case for us is the conversation 
of algal blooms, which often are transferred as a result of 
flood control--it is in the name of flood control--because we 
do have an aging and failing dike there. But it leaves another 
area with a great deal of debris of very harmful algal blooms, 
often very harmful to human life, certainly harmful to sea 
life. And so that is the issue we face.
    I would hope that we could have a conversation, perhaps as 
a group, about this at a future date.
    Admiral Schultz. Thank you.
    Mr. Mast. With that, I will yield back. Thank you.
    Mr. Davis. The gentleman from California, Mr. Garamendi, is 
recognized for 5 minutes.
    Mr. Garamendi. I thank you very much, Mr. Chairman. I 
appreciate the witnesses and the work that you are doing. I 
have three different questions.
    First to FEMA, Mr. Long, the disaster recovery program--
excuse me, the disaster response. You have adjusted the cost-
sharing requirements for disaster aid for Texas and Florida, as 
a result of the recent hurricanes. California has had a recent 
disaster. Do you intend to also adjust for California the cost-
sharing requirements for the emergency aid?
    Mr. Long. So it depends. There are a couple things. The 90/
10 cost-share is triggered and there is a formula that is set 
forth by procurement of the Post-Katrina Emergency Management 
Reform Act. And here again I can submit specifically to you how 
that formula works. But basically, if I remember correctly, if 
the damage cost is $140 per person for the entire population of 
California, then that basically triggers the 90/10 cost share.
    Mr. Garamendi. We will work with you on that. The disaster 
recovery program, a couple of our colleagues have already 
raised this question about past Presidential disasters and the 
FEMA's IOUs to State and local government for the Federal cost-
share in the recovery. And that is infrastructure repair, and 
so forth.
    Do you intend to request in the upcoming emergency 
appropriation bill sufficient money to cover past Presidential 
declarations and the local and State recovery money that is 
owed to them?
    Mr. Long. Right now I don't have an understanding of the 
issue specifically that you are referring----
    Mr. Garamendi. It has been raised by three of my colleagues 
here, and this has to do with past emergencies declared by the 
President in which local governments have put up their 25 
percent and have paid for the recovery of various 
infrastructure, and FEMA has yet to pay the 75 percent Federal 
share of that recovery work.
    Mr. Long. I would be happy to look into it.
    Mr. Garamendi. If you would, we think there is about $5 
billion owed to the State of California for past Presidential 
declarations. You heard from Texas just a moment ago and, 
similarly, most every State where there has been a Presidential 
declaration.
    My understanding is what has happened is you have had 
little enough money to deal with the emergencies and the 
response to the emergencies. And therefore, you have delayed 
payment on these IOUs. So if you would look into that, I would 
appreciate it.
    Mr. Long. Yes, sir.
    Mr. Garamendi. Coast Guard, you are at about $1.8 billion 
in infrastructure damage as a result of the hurricanes. Is that 
correct?
    Admiral Schultz. Congressman, as a result of the 
hurricanes, this season here may be a little carryover--about 
$70 million--from 2016, Matthew. I would say we are at about 
$1.1 billion, $2 billion, $3 billion, somewhere in that range.
    Mr. Garamendi. OK. How do you expect to get that money to 
rebuild the infrastructure?
    Admiral Schultz. Well, sir----
    Mr. Garamendi. This is infrastructure that is being used 
that has been damaged, in some cases not even available for us.
    Admiral Schultz. Yes, sir, Congressman. There are more than 
40 facilities that have been damaged here in the recent round 
of storms. We, at the request of OMB, through our parent 
department, the Department of Homeland Security, have submitted 
our needs. That number is, again, a number north of $1 billion. 
It is working through the Department. I am not sure if it has 
left the----
    Mr. Garamendi. I believe you have also submitted 
information to the subcommittee of this--the Coast Guard and 
Maritime Transportation Subcommittee of this committee, and we 
will work with you on trying to secure that funding, and it is 
out there.
    You have also had an extraordinary expense in the immediate 
emergency response. How much have you spent in the immediate 
emergency response for the three hurricanes?
    Admiral Schultz. Well, sir, like I said, that number, that 
billion-plus number there, there is about half-a-billion that I 
believe is actual hard facility costs. There were some damages 
to our aircraft. There are, you know, other wear-and-tear type 
things. There are personnel costs in there. That collectively 
gets you to that number that is north of----
    Mr. Garamendi. Ongoing operational costs are what I am 
referring to.
    Admiral Schultz. Ongoing operational costs, sir?
    Mr. Garamendi. I guess my point is that my understanding 
from the information that we have received is that the Coast 
Guard has spent into its annual appropriations to deal with the 
emergencies, and you may have a shortfall for the remainder of 
the current fiscal year.
    Admiral Schultz. Yes, sir. I think----
    Mr. Garamendi. I am curious how you are going to backfill, 
or if you will be--if you need to backfill that amount of 
money. If so, then we need to know so that when there--the new 
emergency appropriation bill goes through, that we include in 
that bill the Coast Guard.
    Admiral Schultz. Yes, sir. I think if you look at, sir, 
where we were at the close of a fiscal year, at the end of 
September to 1 October, we deferred things in our operating and 
maintenance class. We deferred a $7 billion contract to replace 
19 small operational boats. We had to make decisions as you 
close out the fiscal year in a responsible way to do that. So 
there are some things. There is deferred maintenance, and that 
stuff plays forward. And we can work with you, sir, on those 
specifics.
    Mr. Garamendi. We would appreciate specific information so 
that we can work on the appropriation, the emergency 
appropriation.
    Finally, I am really curious how we are going to pay for 
all of this. I believe we just made a major move here in this 
House to significantly reduce the Federal revenues. It is 
called tax cuts.
    I will let it go at that, Mr. Chairman. Thank you.
    Mr. Shuster. I thank the gentleman. With that, I recognize 
Dr. Babin for 5 minutes.
    Dr. Babin. Yes, sir. Thank you, Mr. Chairman, and thank 
you, witnesses, for being here.
    My district is in east Texas, as well, dovetails right in 
with Congressman Weber, who--we actually have the dubious honor 
of having the continental rainfall record in one single storm 
in my district, District 36. I also have more petrochemical 
refining facilities than any other district in the country. I 
have Port of Houston, a lot of damage, a lot of siltation and 
shoaling. And we certainly need to have some of these funds for 
disaster.
    But my biggest concern here--and I direct this to General 
Jackson, or really, anybody who can answer this--a lot of tough 
questions had to be made during this storm, and will have to be 
made in the future by local river authorities and water 
jurisdictions with regards to lowering reservoir levels prior 
to the onset of a predictable flood event, so that we can save 
lives and property for those who are down below these dams.
    However, at locations that are under the authority and 
jurisdiction of the Federal Energy Regulatory Commission, or 
FERC, because of their proximity and relationship to federally 
managed hydropower facilities, these local river authorities 
have told me that they believe they are basically powerless to 
make these critical decisions that have to do with lives and 
property.
    I have heard more about this issue from constituents over 
on the east side of my district, in Texas, than any other area. 
And I have here a resolution that was recently passed by the 
Cameron Parish Police Jury in Louisiana to demonstrate that 
these issues are often not limited to just one State. And I 
would like to submit this for the record, Mr. Chairman.
    What are your thoughts on a solution to these issues? And 
could the Army Corps perhaps find a role as the arbiter between 
FERC and local authorities when these decisions need to be 
made, or possibly do you see a need for an interagency process 
to steer these decisions? For example, a process by which the 
Corps, local river authorities, and FERC all might have a voice 
in developing more flood storage capacity or lowering these 
lake levels when we have a known flood event about to occur.

        [The resolution from the Cameron Parish Police Jury is on pages 
        187-188.]

    General Jackson. Yes, Congressman, I appreciate that 
question. You know, water management is always a very 
controversial issue. We don't have any authority over FERC, but 
we work very closely with FERC on water management across the 
Nation.
    I think there is always room for continued dialogue, 
especially as situations in a watershed change over time. To 
help us make better informed decisions on how we manage water, 
how we manage the releases, there are significant advances in 
meteorology that have given us better forecasting capability 
that allow us to see events coming and better understand what 
is going to happen in the basin.
    I would be happy, sir, to get with you and your staff----
    Dr. Babin. I would love that.
    General Jackson [continuing]. And better understand some of 
the concerns, the information that you have, engage with FERC, 
and then, with FERC, come and see you and have a discussion on 
what we can do.
    Dr. Babin. Well, these poor folks that are with these river 
authorities have their hands tied. And they don't--the people 
that live below and lose their property and some lives, some of 
them are ready to take up arms. I mean this is how angry these 
folks are, and blaming the river authorities, when really it is 
a protocol, it is a guideline from the Federal Government.
    Who can make these decisions? We had a terrible flood on 
the Sabine River the year before last, and we asked these 
questions we could not get answers to. So I want to have some 
answers.
    Do you know how we could amend these protocols?
    General Jackson. Sir, let me get with your staff offline 
and we will figure out specifically which issues are most 
concerning.
    I understand the general issue that you are talking about, 
and I want to be able to get with FERC offline, make sure they 
are aware of the concerns, and then come in together and lay it 
all out for you so it is not confusing. And we can think about 
what we need to do next.
    Dr. Babin. Yes, indeed. I appreciate that.
    Anybody else want to have anything they want to add about 
that?
    OK. Well, with that, I will yield back, Mr. Chairman. Thank 
you.
    Mr. Shuster [presiding]. I thank the gentleman. And then, 
with that, I recognize Mr. Johnson for 5 minutes.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman. Back in 
September, the Virgin Islands and Puerto Rico were devastated 
by a 150-mile-per-hour category 4 hurricane that inflicted 
damage that was described as being catastrophic. A humanitarian 
disaster was unfolding with food and water being unavailable, 
and communications being cut off. And there was a sense of 
desperation among the people of the Virgin Islands and Puerto 
Rico.
    And it was during that time period that the mayor of San 
Juan, Puerto Rico, Carmen Yulin Cruz, became a public voice of 
the frustration being felt by the people of Puerto Rico.
    And Administrator Long, on or about October the 8th you are 
reported to have stated, ``We filtered out the mayor a long 
time ago. We don't have time for political noise.'' Is that 
your statement?
    Mr. Long. Poor choice of words under a lot of stress. Yes, 
sir.
    Mr. Johnson of Georgia. What did you mean when you said you 
had filtered out the mayor?
    Mr. Long. As I said, it was a poor choice of words. The 
bottom line is that we were under tremendous stress at the 
time, and----
    Mr. Johnson of Georgia. I understand that.
    Mr. Long [continuing]. Then the rapid-fire questions of the 
media and everything----
    Mr. Johnson of Georgia. I appreciate the stress that you 
all were working under, and I appreciate your efforts.
    Mr. Long. Right.
    Mr. Johnson of Georgia. But what did you mean when you said 
you had filtered her out?
    Mr. Long. Bottom line is that any time we are going 
through--unity of effort is what is required. At the time, the 
mayor refused to be a part of the joint field office 
organization that we had to ensure a unified effort. There are 
over 78 mayors in Puerto Rico that----
    Mr. Johnson of Georgia. Did you----
    Mr. Long. Do you mind if I answer the question?
    Mr. Johnson of Georgia. Well, I do, but I have limited 
time, and that is why I am interrupting you.
    Did you freeze the mayor out of those discussions with the 
other mayors?
    Mr. Long. No, Congressman, we did not. She had----
    Mr. Johnson of Georgia. You didn't mean that when you said 
that you had filtered her out.
    Mr. Long. That is not true. As I said, it was a poor choice 
of words. And specifically, we have had staff embedded with her 
basically since Maria exited. I have one of my best Federal 
coordinating officers there right now, as we speak, along with 
intergovernmental staff that has been embedded with her and all 
the other mayors, if they choose. Those are only two mayors 
that have chosen not to have my staff in there.
    Mr. Johnson of Georgia. And she was one of them?
    Mr. Long. No, she was not. We----
    Mr. Johnson of Georgia. So she----
    Mr. Long. But all the other mayors have been regularly----
    Mr. Johnson of Georgia. So she--Mayor Cruz has been trying 
to cooperate with FEMA, but she has been critical of the 
response. And I would note that, you know, 75 percent of the 
people in Puerto Rico to this day are still without power. 
Isn't that correct?
    Mr. Long. Yes, sir.
    Mr. Johnson of Georgia. And what about in the Virgin 
Islands, same situation exists?
    Mr. Long. There are many without power in the Virgin 
Islands as well, yes, sir.
    Mr. Johnson of Georgia. And so, when people complain about 
it, is it the Trump administration's muscular approach now to 
critics that you can vocalize your frustration? Do you feel 
that that is appropriate for a person in your position to make 
those kinds of assertions about publicly elected officials who 
are only trying to serve the public that they are elected to 
represent?
    Mr. Long. At the end of the day I believe the mayor of San 
Juan and I share the same goal, and that is to help people. I 
didn't take this job to step on people, by any means. I have 
spent two decades as an emergency manager, dedicating my career 
to taking care of a lot of people. You don't----
    Mr. Johnson of Georgia. Yes, you have a long history as a 
professional in emergency management, and I deeply respect it.
    Mr. Long. Thank you.
    Mr. Johnson of Georgia. Let me ask this question. In 
restoring the electrical grid, I know that some of my 
colleagues have asked a question about the suitability of going 
underground with power lines. And it has been stated that it is 
cost-prohibitive and, in certain cases, the terrain does not 
lend itself to undergrounding.
    What I want to know is are there any cost estimates that 
back up that assertion that it is cost-prohibitive with respect 
to laying in underground utilities in Puerto Rico?
    Mr. Long. That is a great question. My authorities are 
limited in what we can do by the Stafford Act when it comes to 
making improvements, particularly when there are deferred 
maintenance issues on the power grid. It is a very antiquated 
system that was not working before the storm that we are having 
to fix underneath my emergency authorities.
    But when it comes to the permanent work of repairing that 
power facility, it is going to take an act from Congress that 
is far greater than my authority to be able to rebuild in a 
more resilient fashion so that we do not go through this 
collectively, as a Nation, ever again.
    Mr. Shuster. The gentleman's time has expired.
    Mr. Johnson of Georgia. Thank you. I yield back.
    Mr. Shuster. I thank the gentleman.
    Mr. Davis is recognized for 5 minutes.
    Mr. Davis. Thank you.
    Administrator Long, did you have anything else you might 
want to add on the interactions with the mayor that my 
colleague asked about?
    Mr. Long. Negative. Well, I take that back. Look, 
uniformity of effort is definitely what is needed. My goal is 
to support the Governors. I mean I talked to Governor Rossello, 
Governor Mapp. There was one day when I spoke to seven 
Governors from California to the Virgin Islands to ensure 
response and recovery priorities and making sure that we are 
meeting the mark.
    And we embedded--we realized that there was not an 
emergency management infrastructure in place at the local level 
in Puerto Rico, and we proactively have embedded a lot of staff 
in each one of those offices to make sure that the mayors have 
a voice back to what needs to be done.
    Mr. Davis. Thank you. Thank you.
    General Jackson, as you are fully aware, there has been a 
lot of discussion among members of this committee about the 
Corps' implementation of section 408 permissions. From my end, 
you know, a lot of those concerns deal with section 408 
permissions on non-Federal levees.
    First, can you tell me how many miles of levees will need 
to be repaired, modified, or rebuilt, due to the recent 
hurricanes and storms?
    General Jackson. Congressman, I don't have, off the top of 
my head, the miles of levee. But I know that they have been 
addressed in our submission for damage estimates to the 
administration. But I can pull that information and get that to 
you.
    Mr. Davis. Is there a different process that the Corps uses 
for section 408 permissions in the aftermath of a disaster, to 
expedite them?
    General Jackson. Congressman, if a levee is damaged and the 
Corps repairs it under Public Law 84-99, a section 408 
permission is not required.
    Mr. Davis. OK. Do you think there are many levees that will 
be repaired by the Federal Government that will not fall under 
that provision?
    General Jackson. Perhaps there will be.
    Mr. Davis. Will there be an expedited process to go through 
the section 408s?
    General Jackson. The section 408 process itself has 
obviously been under a lot of criticism. And we have looked 
inwardly in the Corps to determine how can we improve the 
responsiveness of section 408s. And we have waived and changed 
a lot of the provisions that we have had before, such as the 
percentage design requirement not requiring section 408s for 
more routine operation and maintenance-type activities, trying 
to eliminate environmental reviews for section 408s that are 
redundant with other types of environmental reviews, and we 
have worked very hard to power down the decisionmaking 
authority to the lowest level.
    So it is below the district commander, now, all the way 
down to a responsible GS-15, like the chief of engineering and 
construction at a district, to allow for greater 
responsiveness.
    Mr. Davis. So there is a great responsiveness at the 
district level. Are you noticing that when you implement these 
internal changes, are the districts uniform in implementation?
    General Jackson. It is going to be really interesting. We 
like to call them geographically tailored solutions. And the 
reason I say that is there is going to be some difference when 
you have 41 districts all doing something; we have given 
autonomy to them to do it as fast as they can, we are using the 
right engineering standards, there is going to be differences 
of opinion. There is difference in topography, difference in 
projects. They are not all the same.
    So there will be some differences, but I am not going to 
call them inconsistencies anymore. I am going to call them 
geographically tailored solutions.
    Mr. Davis. That is a good paraphrase, I guess. We will look 
forward to working with you. And obviously, we will bring up 
the geographical whatever exclusions--inclusion, however you 
called it--when we see some discrepancies.
    But I do appreciate you really looking at the section 408 
process, because, obviously, it needed to be--needed to have 
some changes. And thank you for that.
    Administrator Long, it is great to see you again. You were 
in my office not too long ago--I appreciate that--long before 
the storms. And I think you have done the yeoman's work in 
doing everything you can to address many of the issues that we 
have heard about today, especially from our colleagues who 
represent those areas that have been hit.
    I know we are talking about the hurricanes today, but you 
and I talked about a bill that I had, which is the Disaster 
Declaration Improvement Act, that would allow FEMA to utilize 
more localized impacts when determining whether or not an area 
that had been hit by a disaster would be eligible for Federal 
disaster assistance.
    As we move ahead on this, you know, this bill actually 
passed the House in May, 425 to nothing. We are not going to 
stop. As you see these storms hit, you see many storms hit 
areas in the Midwest even. How can you tell me how those 
localized impacts can be taken into consideration by FEMA in 
the future to better assess true disasters, and whether or not 
States and localities can cover their costs in absence of the 
Federal Government?
    Mr. Long. Here again it goes back to the Stafford Act. In 
many cases, small communities can have devastating storms, but 
the overall statewide impact doesn't meet the indicators that 
would say Federal assistance is down the road.
    I hear you loud and clear. I would like to continue to work 
with you on how we can work through those issues.
    Mr. Davis. Well, we will do that. And just like--you know, 
it seems even smaller storms--not the ones we are talking about 
today--once the disaster happens, the communities come 
together, agencies come together, clean up, and then we forget 
about the underlying policies that may have led to some 
heartaches during that storm process and recovery process. So 
we will work together when you get to catch your breath.
    Thank you all, and I yield back.
    Mr. Shuster. I thank the gentleman. I now recognize the 
gentleman from New York, Mr. Maloney.
    Mr. Maloney. Thank you, Mr. Chairman. Mr. Chairman, I read 
an article in Travel Weekly about the response of private U.S. 
airlines to the disaster. I would ask unanimous consent that it 
be entered in the record.
    Hearing no objection?
    Mr. Shuster. Hearing no objections, so ordered.

        [The Travel Weekly article is on pages 189-191.]

    Mr. Maloney. Thank you, Mr. Chairman.
    Gentlemen, I am going to have some questions that are going 
to sound critical, but I want you to understand they actually 
are not. And I think that will become clear.
    First of all, I did have the opportunity to go to Puerto 
Rico 2\1/2\ weeks after the storm with Congressman Smucker and 
a bunch of other Members. We saw firsthand the extraordinary 
work and dedication of the men and women of FEMA, of the Coast 
Guard, Lord knows, the Army Corps of Engineers, and all the 
other responders. So thank you, first and foremost.
    In particular, Admiral Schultz, a constituent of mine--I 
have got a bunch of constituents who had family there, very 
concerned. One gentleman in particular named Doug McHoul from 
Hopewell Junction, New York, was very concerned about his 
parents, who own a bed and breakfast. Your folks actually 
located them and put them in touch specifically for him. That 
was great for his family. I want to thank you for that, 
publicly.
    General Jackson, here is the deal. On this power grid 
issue, the bottom line is you guys don't normally do that, do 
you, after a storm?
    General Jackson. That is correct, we don't normally do 
that.
    Mr. Maloney. And the reason you don't normally do that is 
because States normally have emergency mutual assistance 
compacts with other States. Isn't that right?
    General Jackson. That is correct. Yes, sir.
    Mr. Maloney. And so private crews from other power 
companies show up within the days after a storm and flood the 
zone, if you will, and put those wires back up. Isn't that 
right?
    General Jackson. That is correct, yes----
    Mr. Maloney. And those agreements contemplate reimbursement 
to those power companies by the power company in the 
jurisdiction affected. Is that right?
    General Jackson. Yes, sir.
    Mr. Maloney. Right. And so, when the Administrator says 
that you are--I believe his term was mission-assigned that 
task, that is a polite way of saying that got landed on your 
plate, but you don't normally do it. Right?
    General Jackson. That is correct, sir.
    Mr. Maloney. And so, when you say that within--by the third 
week of October you had awarded contracts on that, 
unfortunately that is a month after landfall, right?
    General Jackson. Yes, sir.
    Mr. Maloney. And a month went by without power for the vast 
majority of the island's population, while we are still sorting 
out who is going to do it. And then we award those contracts a 
few weeks later. We know all about the Whitefish stuff, I don't 
want to get into that.
    But the fact of the matter is today your testimony, I 
believe, was that we now have Fluor and PowerSecure and some 
other companies--I am very familiar with Fluor, I understand 
these are very capable entities--and that we have about 300 
pieces of rolling stock, I think you said, that are on their 
way to the island. Is that right?
    General Jackson. Sir, if I may, we have 450 Corps of 
Engineers employees and contractors doing the temporary 
emergency power mission, which is what began after Irma's 
landfall and continues and will continue until the grid is 
restored.
    Today we have over 150 contractors from Fluor and 
PowerSecure that are on the ground.
    Mr. Maloney. Right.
    General Jackson. Mostly----
    Mr. Maloney. You are talking about individuals.
    General Jackson. I am talking individuals.
    Mr. Maloney. But in terms of the rolling stock, I think you 
said 300 pieces are en route?
    General Jackson. Sir, there are two vessels that are due in 
within the next week, one this weekend and one on the 7th of 
November. Each has about 300 pieces of rolling stock for those 
individual contractors. So when----
    Mr. Maloney. Each? Each has about 300 pieces of rolling----
    General Jackson. That is correct. Yes, sir.
    Mr. Maloney. So we are talking about 600 pieces of rolling 
stock. How many crews does that equate to, do you know?
    General Jackson. We should have 108 crews on the ground the 
first part of next week.
    Mr. Maloney. 108?
    General Jackson. And by the 25th of November we will have 
181 crews. We have gotten approval and we are working through 
the action right now to increase those numbers.
    Mr. Maloney. I understand that, General, but my----
    General Jackson. That----
    Mr. Maloney. So if I may, sir, I understand that. I had an 
opportunity to speak to the Governor of Puerto Rico yesterday, 
Governor Rossello. We were all together in Puerto Rico 2 weeks 
after the storm.
    At that time, Brigadier General Holland, who is your senior 
commander on the island, told us there were about 200 crews 
available, and they were going to double it through these 
private contracting to 400. You may recall I had the 
opportunity to ask this question here in the auditorium a 
couple days later.
    General Jackson. Yes, sir.
    Mr. Maloney. And your answer to me was that we were going 
to surge that to whatever the level was needed.
    But here, as we sit here, 6 weeks after landfall, the 
Governor of Puerto Rico told me yesterday, sir, that the number 
of crews he has on the island right now is 400, and he needs 
2,000. He needs, minimum, 2,000 crews--not individuals, crews--
to get that power grid up.
    Now, I know it is not normally your job, and I know we got 
a couple hundred pieces of rolling stock that are going to get 
there at some point. And I know we got a few hundred 
individuals on the island. But, for God's sakes, we are nowhere 
near the resource level we need, are we, to get that power grid 
back up, because the mutual assistance compacts that are 
normally in effect aren't working. Isn't that right?
    General Jackson. They are not working, sir, because they 
weren't requested until this week.
    Mr. Maloney. In fact, Puerto Rico has an emergency mutual 
assistance compact, does it not?
    General Jackson. Yes, sir, they do.
    Mr. Maloney. It is a signatory. It was said here earlier 
that they weren't in place. But that is not true, is it? They 
are in place.
    General Jackson. No, they are in place, sir, but they were 
never----
    Mr. Maloney. It is just that the power companies from other 
States aren't responding----
    General Jackson. Excuse me, if I may, they were----
    Mr. Maloney [continuing]. Isn't that right?
    General Jackson [continuing]. In place. They were 
available, but the Governor chose not to activate them until 
this week.
    Mr. Maloney. But isn't the issue that the power companies 
that would have had to respond were worried about reimbursed? 
Isn't that really the issue, General?
    General Jackson. That I can't answer.
    Mr. Maloney. Fair enough, fair enough. But do you agree 
with me that right now we have maybe--maybe--20 percent of the 
resources, strand wire and running cable, that we need to get 
that power grid back up?
    General Jackson. Sir, we have resources that are flowing in 
as fast as we can get them in, and----
    Mr. Maloney. That wasn't my question. Respectfully, 
General, that was not my question.
    We have about 20 percent, maybe, of the resources we need 
to get the power grid back up.
    General Jackson. Congressman, I don't know what the number 
of resources are, in terms of the overall----
    Mr. Maloney. You disagree with the Governor that he needs 
2,000?
    General Jackson. We are still doing the assessments that we 
need to determine what the resources are, at the same time we 
are flowing in as many resources as we can physically----
    Mr. Maloney. You disagree with the Governor's assessment 
that he needs 2,000 and we have got 400?
    General Jackson. I would like to see the Governor's 
assessment on what is driving 2,000. I know we need to get 
crews in faster, and are working to do that, but I don't know 
what the Governor said, I don't know what he is judging 2,000 
crews on. But we are working very diligently to get as many as 
we can under the authority that we have to be----
    Mr. Shuster. The gentleman's time has expired.
    General Jackson [continuing]. Able to address the problems 
in Puerto Rico, and we are----
    Mr. Maloney. I appreciate that. And I want to reiterate I 
understand this is not normally your responsibility. And thank 
you for your efforts.
    Thank you, Mr. Chairman.
    Mr. Shuster. I thank the gentleman. And with that, Governor 
Sanford, you are recognized for 5 minutes.
    Mr. Sanford. I thank the chairman. I would like to follow 
up on the interchange that I just heard. Because whether it is 
300 crews, 400 crews, 2,000 crews, whatever number of rolling 
stock, I think the question is how do you get more there 
faster.
    And so I guess my question would be to the Administrator, 
to the admiral. And there was, as we all know, a 10-day repeal, 
if you will, of the Jones Act in an effort to get more things 
to Puerto Rico quicker and cheaper. Would it help if that 
repeal was reinstated? I guess I would ask that first of you, 
Mr. Administrator. And second to you, Mr. Admiral.
    Mr. Long. We constantly evaluate with the Department of 
Homeland Security and our partners at Customs and Border 
Protection. If there are any issues that we can't seem to get 
any U.S.-flagged vessels in to bring, whether it is 
commodities, fuels, or whatever else to the island----
    Mr. Sanford. I am just asking for a yes or no. Would it 
help, or not?
    Mr. Long. At this point I don't believe it would help the 
way that----
    Mr. Sanford. You don't think it would.
    Admiral, what is your thought?
    Admiral Schultz. Congressman, I would echo the 
Administrator's words. Currently I believe there are sufficient 
vessels to deliver the commodities to Puerto Rico. So my answer 
is no, I don't believe there is a need for a Jones Act waiver 
at this time.
    Mr. Sanford. So then neither of you care about the cost of 
doing so. Because there are finite dollars in addressing the 
issue in Puerto Rico, and what, you know, the U.S. 
International Trade Commission has said is, in essence, the 
Jones Act represents about a 65-percent surcharge on cost of 
goods sold going into Puerto Rico.
    So what you would say is yes, we may have enough in the way 
of capacity, but it is at a much greater cost. And neither of 
you care about the cost?
    Admiral Schultz. Congressman, I would say on the Jones Act, 
sir, that is a law that is nearly 100 years on the books. There 
are many complexities, in terms of national security, there are 
complexities with economic factors with the U.S. Fleet that I 
think would have to be approached very thoughtfully.
    Mr. Sanford. OK, but that is not really answering the 
question. It is indisputable that it is at a higher cost. And 
you are saying that cost shouldn't be factored in, in getting 
finite resources into Puerto Rico?
    Admiral Schultz. Sir, I believe the cost, when you are 
dealing with U.S. Fleets, there is reasons for that cost. They 
tie back to the safety management systems and structures on 
that ship. So there is a cost, but with that cost comes factors 
that factor into the broader whole conversation.
    You can't--you know, obviously, doing things in Puerto Rico 
at the most efficient cost is a consideration. The Jones Act is 
a--it has a longstanding, you know, almost a 100-year history, 
sir, of why----
    Mr. Sanford. I understand that, but it is also why the 
President repealed it for 10 days, because, based on cost and 
availability, they said we have got to get aid.
    But what we have seen is this is a much longer rolling 
crisis in Puerto Rico than people would have presupposed. And 
consequently, wouldn't it make sense to again enact that repeal 
for a longer time period so that more aid at a lower cost could 
go into Puerto Rico?
    You say no----
    Admiral Schultz. I would say my understanding was the 10-
day repeal was to make sure there was an availability of 
platform ships to meet the immediate commodities delivery need.
    Administrator, I am not sure if you have anything to add to 
that.
    Mr. Long. I would agree. I believe that that question is 
beyond FEMA's authority to make that decision. I believe that 
decision lies with you.
    Mr. Sanford. Well, it doesn't lie with me, it lies with the 
President. But I think it is instructive, because both of you 
all, as I understand it, requested that waiver of the President 
at the--you know, prior to the 10-day repeal. Am I mistaken in 
that belief?
    Admiral Schultz. Sir, I believe that waiver was triggered 
by the Secretary of Defense for purposes of national security 
for that short duration period.
    Mr. Sanford. OK.
    Admiral Schultz. And then that process is through the 
Secretary of Homeland----
    Mr. Sanford. But you all did not object at that time.
    Admiral Schultz. Sir----
    Mr. Sanford. You thought it was a good idea.
    Admiral Schultz. Sir, at the time it was a decision by the 
administration that we supported. Yes, sir.
    Mr. Sanford. You supported it, and FEMA, if I am not 
mistaken----
    Mr. Long. Yes, sir.
    Mr. Sanford [continuing]. You all supported it, as well. So 
my simple question goes back again to the backlog that we were 
just listening to in that interchange. Given the fact that this 
crisis has lasted much longer than people would have 
presupposed, given that there is a higher cost to people in 
Puerto Rico in bringing aid and armament--if you want to think 
about it in defense terms--then why wouldn't it be a good idea 
to extend, in essence, that moratorium or repeal, whatever you 
want to call it?
    And both of you are saying, well, I--you know, it is 
outside my pay grade, I am just asking for your recommendation, 
because you all are seeing firsthand the degree of hardship and 
plight that the people of Puerto Rico have seen.
    And therefore, I would see that anything that would help 
the situation down there--and particularly dollars are finite. 
And if you can get more throughput at a lower cost, that would 
ultimately be good for the people of Puerto Rico. I don't know 
why you all wouldn't support that idea and push for it.
    Admiral Schultz. Congressman, I would echo the 
Administrator, that I believe that is a choice of Congress. The 
Jones Act has been in the books, it serves many different 
purposes. Cost response for Puerto Rico is a consideration. 
That may be something that would factor into any discussions 
about whether the Jones Act remained in effect and was 
eventually repealed.
    Mr. Sanford. If I might, just for 1 more second?
    Mr. Shuster. You have got 15 seconds.
    Mr. Sanford. Yes, sir. That seems such a push answer, 
respectfully. I get--you can throw it back to Congress. But 
what I am asking, given that you all are on the front lines, is 
what is your opinion. I want to make sure both of you think 
leaving it alone is best for the people of Puerto Rico.
    Admiral Schultz. Congressman, in full respect, sir, I am 
saying obviously, as a responder, we care about helping those 
in need, as--you know, as best possible. I would say 
determinations such as the Jones Act have many layers of 
complexity and political considerations of that.
    Ultimately, this expenditure of dollars is not in my lane, 
outside of what I do with monies appropriated to the Coast 
Guard. And I guess, politely, I am pushing that back, sir, that 
I think it is a consideration for the Congress.
    Mr. Shuster. I thank the gentleman. Mr. DeFazio and I are 
going to take another round of questions, but we will go back 
and forth, Democrat, Republican. So I am going to go to Mr. 
DeFazio first, and then Mr. Perry, and then I will finish up. 
So Mr. DeFazio is recognized for 5 minutes.
    Mr. DeFazio. Thank you. That--I am going to provide you a 
copy of this. This is the last definitive study on whether or 
not there are additional costs, and whether or not Puerto Rico 
would benefit from the loss of the Jones Act. And, in fact, 
basically, it says they wouldn't, because they wouldn't have 
regularly scheduled shipping, they would be at the whim of the 
international lines, who aren't very interested in a little 
tiny market like Puerto Rico with regular service from 
Jacksonville.
    No, no, no, I am sorry. You can--after you read this, we 
can have a discussion.
    But the bottom line is I asked was any shipment delayed, 
you know, or denied because of the Jones Act, and the 
definitive answer from the Coast Guard and FEMA was no. So 
let's not create a myth here, pursuing an ideological agenda 
which would both undermine national security, probably deprive 
the people of Puerto Rico of a good shipping service and other 
things.
    And I am also going to put a copy of this in the record. So 
these are facts. And I know we have fake facts these days, but 
these are real facts. And let's move on from there.
    So, the--I am curious about this mutual aid thing. The 
Governor is alleging that FEMA told him that because he had--
because the Corps was designated to restore power, that he 
could not execute the mutual aid. Are you aware that anybody in 
your agency told him that?

        [The U.S. Government Accountability Office report referenced by 
        Congressman DeFazio is on pages 192-237.]

    Mr. Long. I am not aware of that, no.
    Mr. DeFazio. OK. So we are--we have to get to the bottom of 
that. But that is his claim that that is why he didn't execute 
it. And the mutual aid, obviously, is less expensive than a 
couple of contracts, which I mentioned already, these no-bid 
contracts that Puerto Rico entered into. So we will have to get 
to the bottom of that.
    And to one other quick question, do you have--I mean you 
gave us a litany of good ideas at the beginning that I would 
like to pursue, but do you have also ideas about how we are 
going to deal with noncompliance of NFIP? Because we already 
heard that, well, we got a bunch of people here who didn't buy 
the insurance who were supposed to, and now we got to bail them 
out. You got any ideas on that?
    Mr. Long. We got to fix the--we have to make a decision. Do 
we want to continue to reward people building in vulnerable 
areas by giving them insurance that is not at an actuarial 
rate? Or do we hit the reset button and allow the private-
sector market to start dictating more of what those rates look 
like, and taking over some of the market?
    I mean it is going to be a tough question. But I can tell 
you that I am not interested in running an NFIP program that is 
going to go into debt continuously. You did the good work of 
listening to our requests when it came to providing the 
additional funding for Harvey and Maria--but if we do that, we 
have got to fix the framework of the NFIP to honor the 
taxpayers' dollar.
    Mr. DeFazio. OK. And, I mean, you know, one--seemed to me 
one simple fix would be we will insure you once, you have a 
loss, next time you go to the private market.
    Mr. Long. We would be happy to provide you our thoughts on 
an NFIP restructuring, as well.
    Mr. DeFazio. Great. General, just since I know your 
expertise is not necessarily the restoration of a--you know, a 
power grid, and we talked about that extensively, but one thing 
I know the Corps is really good at is construction, temporary 
bridges. What are our barriers to--I mean we are still hearing 
about problems with access to remote areas and highways that 
are, you know, that--where the bridges are out, or the highway 
itself is out.
    I mean what are the barriers there for getting better 
access?
    General Jackson. Sir, first of all, the Department of 
Transportation has the lead for all the roads and bridges, and 
they are working very closely with the highway department and 
the Department of Transportation in Puerto Rico to do the 
assessments to identify the requirements.
    They have already installed a number of temporary bridges, 
and they have already put in a request for funding that the 
Federal Highway Administration has, to make more permanent, 
long-lasting repairs to some of the infrastructure.
    One of the real challenges in the remote areas--and I spent 
some time with General Buchanan a couple weeks ago--is that 
many of the remote areas suffer from landslides. You may have a 
road that is cleared into a remote area on one day, it rains a 
lot, and you have a landslide that causes a road to close, you 
have to go back in there and open it back up again.
    So it is an on-again, off-again, long-term issue that we 
will continue to deal with, especially gaining access in the 
remote areas. But I believe DOT has a pretty good handle with 
the Puerto Rico Department of Transportation on the way ahead 
for transportation infrastructure on the island.
    Mr. DeFazio. OK, thank you.
    Thank you, Mr. Chairman.
    Mr. Shuster. I thank the gentleman. Mr. Perry is recognized 
for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman. Thank you, gentlemen, 
for your service.
    Every single Member of Congress, I think--all the American 
people, their hearts are broken for the people of Puerto Rico 
and their continued suffering without power and without access 
to services and infrastructure.
    My questions will go to Administrator Long, initially, and 
Major General Jackson.
    PREPA was created--the Puerto Rico Electric Power Authority 
was created in 1941, when the Governor nationalized private 
electric companies on the island. And prior to the hurricane, 
the State-owned monopoly, which is PREPA, was $9 billion in 
debt with an estimated $4 billion in needed infrastructure 
upgrades at that time.
    A contributing factor to PREPA's dire financial situation 
is the fact that PREPA had been giving free power to all 78 of 
Puerto Rico's municipalities--many of its Government-owned 
enterprises and even some of its for-profit businesses. The 
practice has occurred for decades, even as PREPA continued to 
take on debt, borrowing billions of dollars in the process. 
Property taxes, which pay for it, were last assessed in 1958.
    Another contributing factor to PREPA's financial situation 
is its own mismanagement. According to a 2016 Synapse Energy 
Associates report compiled for Puerto Rico, it says this: ``Our 
review indicates that PREPA's operational spending has not been 
consistent with operation of a safe and reliable system since 
at least FY 2014. A major component of PREPA's operational 
spending lands in Administrative and General functional area, 
and that spending in this area has increased in recent years 
for unexplained causes.''
    And to give this figure context, in 2016 PREPA spent the 
equivalent of more than one-third of its entire capital budget 
on discretionary A&G spending. And according to the report, 
PREPA's financial woes led to a deliberate decision by its 
leadership to forgo the necessary infrastructure upgrades 
needed to produce a reliable system.
    To keep its budgets under the cap, PREPA has engaged in 
what appear to be self-defeating practices, such as deferring 
maintenance, extending outages to avoid overtime, and 
allocating budget away from critical but low utilization unit.
    The report conclusion is a damning indictment of the 
island's infrastructure, and explains the difficulties 
encountered in reelectrifying the island. And it says the 
current reality is stark. Many of PREPA's existing units are in 
such a poor state of repair that PREPA must consider itself 
lucky if they remain operational for more than several months 
at a time, and that PREPA's transmission and distribution 
systems are falling apart, quite literally. They are cracking, 
corroding, and collapsing.
    And it is my understanding that there were no activated 
mutual aid agreements, which we are familiar here, where, when 
something happens, other power companies come to the aid.
    It seems to me that it is a dereliction of duty and 
incredibly irresponsible, in caring for the people of Puerto 
Rico, what has happened there. While restoring power to the 
island is necessary, the question is should FEMA and the 
Federal Government be on the hook indefinitely, after years of 
willful neglect of PREPA's grid?
    Mr. Long, are you set up for that?
    Mr. Long. I don't think we should be on the hook. We have 
been put in a terribly complex situation, as a result of 
deferred maintenance and a system that was allowed to decay. 
And, unfortunately, everybody wants the power back on--nobody 
wants the power back on more than FEMA and the Army Corps of 
Engineers.
    Mr. Perry. Right.
    Mr. Long. And we have been working through that, sir, left 
and right.
    But the thing is that a large portion of it never worked 
before Maria hit, and now we are having to basically----
    Mr. Perry. And you are not set up to be there indefinitely, 
because some were kind of implying--they are making the 
implicit claim that you are supposed to be there indefinitely. 
Are you set up for that?
    Mr. Long. Indefinitely?
    Mr. Perry. Yes.
    Mr. Long. No. No, we are not.
    Mr. Perry. All right, and I just want to make that clear. 
We all want the power. Everybody wants the power on.
    Mr. Long. Right.
    Mr. Perry. No more than you folks sitting in front of all 
of us.
    General, do you believe that PREPA should strongly consider 
privatization?
    General Jackson. Sir, I think there are a lot of decisions 
that face Puerto Rico right now, and privatization could be one 
of those. I know that the Department of Energy is really taking 
a hard look at the grid itself. They are looking at what can be 
done to make the grid more effective, more efficient.
    They have 15 power plants right now. They are supposed to 
put out about 5,200 megawatts, but they only use about 2,500 
megawatts. The power plants that produce most of the generation 
are on the southern side of the island, but all the people live 
on the north, which makes big, high-voltage transmission lines 
vulnerable to the winds that hit Puerto Rico.
    There is a lot of room for improvement. DOE is looking 
really hard at that, and they are going to be making some 
recommendations not only to what needs to be done to the grid 
itself, but they are probably prepared to make some 
recommendations on what the public utility could do to be more 
efficient and effective. I have read all the same reports that 
you have, so I am not unfamiliar with some of those conditions 
that caused it to be the way it is right now. I think there is 
a lot of room for improvement.
    The Corps of Engineers is really focused on the response 
piece, and that is just getting this power grid back up as fast 
as we can, and getting it to the most essential places where it 
needs to be. But we realize that what we are doing is in no way 
going to be the ultimate end-state solution for where the grid 
needs to be.
    Mr. Perry. Thank you, sir.
    Gentlemen, thank you.
    Chair?
    Mr. Shuster. I thank the gentleman. I recognize Mr. Hunter 
for 5 minutes.
    Mr. Hunter. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here. I didn't want to be the one Committee on 
Transportation and Infrastructure member that didn't talk 
today, so I figured I would add on to the end here.
    So two specific things. There is a--it is called a--the 
Hermes. Are you familiar with this, Admiral? The Hermes, it is 
a, let's see, 30-inch outer hull, rather than 34, the void on 
the vessel's bottom, 47 instead of 50. So they were turned away 
for bringing fuel to Puerto Rico because of the 3 inches in the 
double hull width, and then the void. That sounds kind of crazy 
to me, unless there is a really great reason for it.
    Admiral Schultz. Congressman, I think there is a vessel 
that has requested a waiver from the Coast Guard. I think, as 
you know, sir, as our subcommittee chair, better than anyone, 
you know, we are an Armed Force, we are a first responder, we 
are a regulatory agency, we are a law enforcement agency. Each 
of those has statutory reach-back that tells us what we can do, 
where we have discretion. The--a subchapter vessel, a general 
freight cargo-type vessel, it is also an offshore supply 
vessel, a subchapter L vessel. It is not a subchapter D vessel 
that is allowed to carry bulk quantities of flammable and 
combustible liquids. They are asking for a waiver to be able to 
do that. By law, subject to----
    Mr. Hunter. But you don't look at different things if there 
is an emergency like this? I mean, and it is months after, so 
it is different. But I mean during an emergency you would say a 
subchapter whatever can still do something, right?
    Admiral Schultz. Well, sir, I think there are many 
considerations in granting a waiver. The short of this, as of 
Friday the 27th, the 7th District--who is working supporting 
the officer in charge of marine inspection down in Puerto Rico 
because of their workload, being the center, they are 
supporting them--basically, this waiver was denied.
    I think when you say, well, why is it denied, you are 
talking about whether it is a double-bottle hull or not, the 
engine----
    Mr. Hunter. A double-hull----
    Admiral Schultz. It is not a double-hull vessel, by the 
law. There is an appeal process for this waiver, and I would 
encourage----
    Mr. Hunter. And one of the reasons I ask this is because, 
getting into the Jones Act and how much capacity there is for 
shipping, so there is so much capacity now we are turning down 
ships is my point.
    Admiral Schultz. Sir, I would say there is--I believe there 
is sufficient capacity of subchapter D ships, these ships, that 
do this, you know, move flammable cargoes like that. They are 
available.
    Mr. Hunter. So the capacity is there.
    Admiral Schultz. My understanding is capacity is there, 
yes.
    Mr. Hunter. Second specific question. There is a guy named 
Sean Carroll that does the pre-positioning for Air Force One 
and Marine One for fuel. He pre-positions fuel. And you can 
imagine if you get that contract, you have got a--you have to 
be ready at all times, anywhere, to be able to fuel up Air 
Force One, right?
    He has approached FEMA in the past, and Coast Guard. He has 
that contract now, by the way. He pre-positions fuel, he was--
and FEMA has said great things, said yes, we should do this 
when a big storm is coming. The Coast Guard has also said yes, 
we should do this when a big storm is coming.
    He has been in Puerto Rico now for about 44 days. FEMA 
called him and said on like day one or two and said, this would 
be great, if you could actually--yes, come on, you are in. So 
he has been on the ground with portable fuel, getting 
resupplied for over 40 days now. And I just want to bring that 
to your attention. This is one of those things where you have a 
person that could fill that gap, and they are doing it now, and 
they are actually on the ground in Puerto Rico.
    So I would just encourage you--I am happy to give you the 
information on it, but I think that is pretty important, to 
pre-position stuff. I think we have already talked about it, 
but this guy is doing it, he is there, he does it for the 
President. It is a pretty good system of pre-positioning fuel, 
but that is one of the things that you got to have, and it is 
hard to transport into the country, right, or to the province.
    Anyway, thank you, Mr. Chairman, for letting me add on to 
the end, and thank you all for what you are doing.
    Mr. Shuster. Well, thank you. Thank you for yielding back.
    I just have one final question. And I just have to say I 
have been in a position in my time in Congress that seems that 
I was subcommittee chairman during Katrina, and so we--I was 
very involved, and we tried to rewrite the law and streamline 
it. And then I was full committee chairman in 2013 with Sandy, 
and we were able to change some things, and one specifically.
    And so my point I was making is I have been involved in 
trying to streamline FEMA and emergency response for a number 
of years. But in the Sandy legislation we did the FEMA 
reauthorization. We were able to enter in--and you mentioned 
it, Administrator Long--the section 428 authority, which is 
based on estimates, and it gives flexibility. And I just wonder 
if you could just talk a little bit more about that, because I 
think those are the kinds of things we need to strengthen and 
move forward through all the agencies, where we can do it.
    Mr. Long. Anything we can do to expedite funding but 
protect the taxpaying dollar is what we need to be able to work 
on. The section 428 pilot program is something that I truly 
believe in, and we are working with Governor Rossello to 
implement that in discussions now.
    For example, at one point I read a report where there were 
3,200 different roadway obstructions. Instead of writing 3,200 
different project worksheets to fix these various portions in 
the road, we can write one project worksheet, estimate what it 
would cost to do that, but it makes it outcome-driven at the 
very beginning, so we can say here is the design, this is what 
we are going for. You can cap the expenditures. And if we don't 
go that route, then each one of those project worksheets can be 
reversioned and reversioned and reversioned, and then we wind 
up being there for over a decade without completing the 
projects.
    Mr. Shuster. And it has been your experience the States--
this is something they welcome?
    Mr. Long. Some do, some don't. But I think that it is a 
constant balancing act. And I have invited the office of 
inspector general to FEMA. I want to understand how to make 
sure that we protect taxpayer dollars and increase grant 
monitoring.
    But whereas section 428 says be more efficient and put 
money down, the office of inspector general reports are saying 
you need to batten down the hatches and do more oversight. So 
we are caught in this balancing act of which way to go. But I 
would rather get the money out and get recovering kickstarted 
and done, rather than wait years and years and years because of 
the reversioning that takes place on project worksheets.
    Mr. Shuster. Well, I agree with you, and this committee is 
going to be working diligently over the next several months to 
talk to all the four agencies here to try to figure out--give 
us the ideas, tell us what makes sense, what doesn't make 
sense, and we are going to push for that.
    So again, I know that talking to Mr. DeFazio--and as we--as 
I have said earlier, your list of reforms is something that I 
think Mr. DeFazio and I will be pretty much on the same page.
    So again, I want to thank each and every one of you for 
coming here. I know you are very busy, and I know you got lots 
of work to do. So again, thanks. Thanks for being here, taking 
the time.
    And with that I ask unanimous consent that the record of 
today's hearing remain open until such time as our witnesses 
have provided answers to any questions that may be submitted to 
them in writing, and unanimous consent that the record remain 
open for 15 days for any additional comments, information 
submitted by Members or witnesses to be included in the record 
of today's hearing.
    Without objection, so ordered.
    And again, thank you very much for being here. And with 
that, the committee stands adjourned.
    [Whereupon, at 1:27 p.m., the committee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
